<html>
<title> - WORKPLACE SAFETY AND WORKER PROTECTIONS AT BP</title>
<body><pre>[Senate Hearing 111-1155]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 111-1155

 
             WORKPLACE SAFETY AND WORKER PROTECTIONS AT BP

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON EMPLOYMENT AND WORKPLACE SAFETY

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

        EXAMINING WORKPLACE SAFETY AND WORKER PROTECTIONS AT BP

                               __________

                             JULY 22, 2010

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
77-844                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d9bea9b699baacaaadb1bcb5a9f7bab6b4f7">[email&#160;protected]</a>  


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
BARBARA A. MIKULSKI, Maryland        JUDD GREGG, New Hampshire
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
JACK REED, Rhode Island              JOHNNY ISAKSON, Georgia
BERNARD SANDERS (I), Vermont         JOHN McCAIN, Arizona
ROBERT P. CASEY, JR., Pennsylvania   ORRIN G. HATCH, Utah
KAY R. HAGAN, North Carolina         LISA MURKOWSKI, Alaska
JEFF MERKLEY, Oregon                 TOM COBURN, M.D., Oklahoma
AL FRANKEN, Minnesota                PAT ROBERTS, Kansas          
MICHAEL F. BENNET, Colorado          
CARTE P. GOODWIN, West Virginia      


                      Daniel Smith, Staff Director

                  Pamela Smith, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                 ______

            Subcommittee on Employment and Workplace Safety

                   PATTY MURRAY, Washington, Chairman

CHRISTOPHER J. DODD, Connecticut     JOHNNY ISAKSON, Georgia
BARBARA A. MIKULSKI, Maryland        JUDD GREGG, New Hampshire
SHERROD BROWN, Ohio                  RICHARD BURR, North Carolina
KAY R. HAGAN, North Carolina         McCAIN, JOHN, Arizona
JEFF MERKLEY, Oregon                 ORRIN G. HATCH, Utah
AL FRANKEN, Minnesota                LISA MURKOWSKI, Alaska
MICHAEL F. BENNET, Colorado          MICHAEL B. ENZI, Wyoming (ex 
TOM HARKIN, Iowa (ex officio)        officio)
                                       

                      Scot Cheney, Staff Director

                 Edwin Egee, Republican Staff Director

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, JULY 22, 2010

                                                                   Page
Murray, Hon. Patty, Chairman, Subcommittee on Employment and 
  Workplace Safety, opening statement............................     1
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...     2
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....     3
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................     4
Flynn, Steve, Ph.D., Vice President of Health, Security, and 
  Environment, BP Global, London, UK.............................     5
    Prepared statement...........................................     7
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    19
Hagan, Hon. Kay R., a U.S. Senator from the State of North 
  Carolina.......................................................    22
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland.......................................................    25
Merkley, Hon. Jeff, a U.S. Senator from the State of Oregon......    26

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Senator Brown................................................    41
    BP Oil Spill: Failed Safety Device on Deepwater Horizon Rig 
      was Modified in China, article.............................    20

                                 (iii)

  


             WORKPLACE SAFETY AND WORKER PROTECTIONS AT BP

                              ----------                              


                        THURSDAY, JULY 22, 2010

                                       U.S. Senate,
           Subcommittee on Employment and Workplace Safety,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m. in 
Room SD-430, Dirksen Senate Office Building, Hon. Patty Murray, 
chairman of the subcommittee, presiding.
    Present: Senators Murray, Mikulski, Casey, Hagan, Merkley, 
Franken, Bennet, and Isakson.

                  Opening Statement of Senator Murray

    Senator Murray. Good morning. The subcommittee will come to 
order.
    On June 10th, I held a hearing on the topic of keeping 
workers safe in the oil and gas industry. We were joined by 
expert witnesses from the Occupational Safety and Health 
Administration, the Steelworkers Union, the Hazardous Materials 
Programs Office in Contra Costa County, CA, and the National 
Petrochemical and Refiners Association.
    I did invite BP to send a representative to help us 
understand what has been going wrong at their company that led 
to so many deaths and injuries and accidents over recent years, 
and what lessons they have learned from recent disasters at 
their company, but they declined that invitation.
    I found that decision to be outrageous, given the company's 
shameful record of workplace safety and worker protections, 
including 11 workers killed in the Deepwater Horizon disaster; 
15 workers killed and more than 170 injured in a 2005 explosion 
at its Texas City refinery; a record $87 million in fines 
levied against BP by OSHA in October 2009 for failing to 
correct safety hazards after the Texas City explosion--fines 
which came after a 6-month inspection revealed hundreds of 
violations of a settlement agreement put in place to repair 
hazards at the refinery; countless reports about unsafe 
practices at its pipeline operations in Alaska; and evidence 
that corners have been cut in operations, cuts that put workers 
at risk in the interest of maximizing profits.
    The inability or unwillingness to fix known problems raises 
serious questions about BP's commitment to create a safe 
workplace and protect its workers. So I am glad we were able to 
work out an arrangement today to have BP testify about its 
safety practices and record.
    This hearing is a bit unusual. There is only one panel and 
only one witness. That is for a number of reasons. First, this 
subcommittee, Congress, and working people deserve an 
accounting of BP's safety practices. The families of our 
workers who have been killed under BP's watch deserve to 
understand what is going on at the company.
    And BP's own workers--whether they work onshore or 
offshore, whether they work on drilling rigs, in refineries, or 
on pipelines--deserve to know what the company is doing and 
what they will do differently to ensure their safety and avoid 
another disaster.
    But let me be entirely clear. BP is not the only problem 
company in the industry. And fixing BP's safety record is not 
the only solution we need. Despite what anyone tries to say, 
this is not a safe industry. The materials being handled are 
toxic, highly combustible, and deadly. The processes and 
procedures used are complex and carry inherent risks, and too 
many companies still carry a swagger from the early days of the 
industry; more wildcat than refined.
    BP may be an extreme case of a company with unsafe 
practices, but it is not alone. In just the last 3 months, 
there have been 21 fires, 26 deaths, and 33 injuries in oil and 
gas refineries alone. That is in the last 3 months.
    In 2010, there has been on the average one fire per week at 
our refineries. And I should say those are the fires that have 
been reported, as refineries have no legal obligation to report 
every incident.
    Between 2006 and 2009, there were an additional 30 worker 
deaths, 1,298 injuries, and 514 fires on rigs located on the 
Outer Continental Shelf. To me, this doesn't seem like simply a 
string of bad luck. It appears to be a pattern of safety 
violations across an entire industry, and I am very concerned 
that it is the result of oil and gas companies that put profits 
and production over workers and their safety.
    It seems to me the oil and gas industry as a whole has a 
hard time learning from their mistakes and making sure their 
workers are protected. And it seems to me that BP is an 
exceptionally poor student. That is unacceptable. We need to 
make sure that everyone knows that business as usual in this 
industry will no longer be tolerated.
    So, once again, I am looking forward to hearing from our 
witness today. I thank you for coming. This is an extremely 
important issue, and I look forward to today's testimony and 
the questions and answers that many of our Senators will have.
    Before we move to our witness and opening statements, I 
want to recognize Senator Isakson and thank him for coming and 
joining us and being a part of this.

                      Statement of Senator Isakson

    Senator Isakson. Well, good morning.
    And Chairman Murray, thank you very much for calling this 
important hearing.
    Dr. Flynn, thank you for appearing to testify today.
    Over 2 months ago, an explosion onboard the Deepwater 
Horizon oil rig claimed the lives of 11 workers and saddened 
our entire country. This catastrophic event continues to 
devastate the residents of the Gulf Coast. We still do not know 
how bad the tragedy is or how bad it will turn out to be.
    BP must be held accountable for the loss of life, the 
damage inflicted on the local economy, and the devastation of 
the Gulf Coast's vast natural resources. For that reason, I 
cosponsored legislation that would require BP to live up to its 
promises to pay all legitimate claims of economic damage from 
the spill.
    There is no reason we should have to choose between safe 
jobs and human life and domestic energy resources. Onshore, 
offshore drilling should be done, can be done, and it can be 
done in a responsible way that is safe for workers and safe for 
the environment.
    A range of Federal agencies have varying degrees of 
jurisdiction over offshore oil and gas drilling. I was pleased 
to join Chairman Murray on a recent letter to the 
Administration, urging additional cooperation between these 
agencies in the regulation of the industry and the safety of 
the workers.
    Our prayers remain with the victims and their families and 
the people of the Gulf Coast in this terrible tragedy. And 
again, I thank Chairman Murray for calling this hearing and Dr. 
Flynn for attending and appearing.
    Senator Murray. I will turn to our other members who wish 
to make an opening statement, a short opening statement.
    And Senator Franken, would you like to make an opening 
statement?

                      Statement of Senator Franken

    Senator Franken. Yes, thank you, Madam Chair. And thank you 
for holding today's hearing.
    Thank you, Mr. Flynn, for being here today.
    BP has been in the news and on the minds of the American 
people. BP is an enormous company. Last year, they had over 
$230 billion in sales and operated 16 refineries, 5 here in the 
United States. But more importantly, they employ over 80,000 
people. They are responsible for the workplace safety of 80,000 
employees.
    That is the same number of people who live in Bloomington, 
MN, and that is the reason we care so much about the process 
safety procedures of BP.
    Just as for any other employer in the oil and gas industry, 
when mistakes are made, lives are lost. And BP has established 
a very disappointing track record. Twenty-six workers have died 
under its watch in the past 5 years alone.
    One reason why Americans are so outraged about Deepwater 
Horizon is because we lived through the horror of a fatal BP 
explosion just 5 years ago at the Texas City refinery. After 
that accident, BP declared that it was the worst tragedy in 
BP's recent history and that it would do everything possible--
this is a quote--it would ``do everything possible to ensure 
nothing like it happens again.'' But now it is clear that BP 
didn't do everything that it could.
    In the aftermath of the Texas City accident, the Chemical 
Safety and Hazards Investigation Board issued an urgent plea 
for BP to commission a panel to assess their safety procedures. 
The resulting Baker report was very comprehensive and included 
many recommendations for improving process safety at BP 
facilities.
    One of their suggestions was improving the culture of 
safety. Yet in this morning's New York Times, we read a survey 
of Deepwater Horizon workers in which workers reported that 
they saw unsafe behaviors on the rig but didn't report them 
because they were afraid of reprisals.
    The workers said they felt comfortable reporting things to 
their immediate supervisors on the rig but feared corporate-
level repercussions for anything beyond that. I understand that 
the rig was operated by Transocean, but BP hired them to 
operate this rig.
    Almost all workers agreed that the process used for 
tracking safety issues was counterproductive. One worker 
reported the company was always using ``fear tactics.'' That is 
a quote. This situation seemed like a massive failure on BP's 
part to create a culture of safety. If these workers' concerns 
had been heeded, 11 lives might have been saved.
    Finally, I want to remind others that we had a hearing on 
this topic last month, and one of our witnesses was Mr. Charles 
Drevna, president of the National Petrochemical and Refiners 
Association. I mentioned to him that BP had 97 percent of the 
egregious willful--willful--violations in the industry. And so, 
I asked him about the industry's efforts to self-monitor and 
why they weren't on BP.
    He said, ``Well, our trade association or trade group 
doesn't represent BP.'' And I remember being kind of shocked to 
hear that, and then I said, ``Well, let me ask you, is BP the 
only major company that does refinery that you don't 
represent?'' And he said, ``Yes.'' I would like to ask you why 
you are not a member of that association.
    I appreciate the opportunity to follow up with Dr. Flynn on 
BP's progress in implementing the Baker report's 
recommendations and other safety improvements I presume they 
are currently undertaking.
    Thank you, Madam Chair.
    Senator Murray. Thank you.
    Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Chairman Murray.
    And thank you to the Ranking Member for being here.
    I would like to also acknowledge Dr. Flynn from BP for 
joining us this morning.
    This committee has a serious responsibility to explore the 
issue of workforce safety and workplace protections generally, 
and BP in particular. The chairman convened a similar hearing 
over a month ago where BP was unable to attend, and I 
appreciate your persistence in making sure BP is here.
    A great deal of attention stemming from the explosion of 
the Deepwater Horizon has focused on the spill. We should not 
forget that the initial explosion killed 11 workers and injured 
17 others. Beyond the tragedy in the waters of the Gulf, we 
should also remember that a 2005 explosion at a BP refinery in 
Texas City, TX, killed 15 workers and injured at least 170 
others.
    These two tragedies took a tremendous toll on human life, 
and unfortunately, there are other problematic lapses in recent 
company history that also worry me. Just 3 weeks ago, for 
example, BP was ordered to pay $5.2 million in fines to the 
Federal Government after ``false, inaccurate, or misleading''--
that is in quotes--reports of its natural gas production on the 
Southern Ute Indian Reservation in my home State of Colorado.
    When Southern Ute auditors told BP about the problems, the 
company promised to fix them. But auditors found the same 
problems in subsequent reports. That led regulators to believe 
that BP's underreporting to the taxpayer and our Native 
American tribes was ``knowing or willful.''
    It is a smaller example and certainly not one involving 
human life, but it is a worrisome track record across the 
country. The tragedies on the Deepwater Horizon and at the 
Texas City refinery should serve as stark reminders that energy 
development without proper safety and environmental precautions 
can be a very dangerous business.
    To be sure, traditional resources provide an important 
contribution to our Nation's energy portfolio, as they do in my 
home State of Colorado. However, these recent tragedies should 
give us all pause and remind us that the proper balance must be 
struck between traditional energy development and the absolute 
obligation we have to worker health and safety. Oil and gas 
development that comes at the expense of American lives is not 
oil and gas drilling that I or anyone on this committee can 
support.
    Thank you, Madam Chairman, for the opportunity to make an 
opening statement and for organizing today's important hearing.
    Senator Murray. Thank you very much.
    And with that, we will turn to our witness today. Joining 
us is Mr. Steven Flynn. He is the vice president of Health, 
Safety, Security, and Environment for BP.
    Mr. Flynn, welcome, and I would invite you now to present 
us with up to 5 minutes of opening testimony. Your full 
statement will be included in the record.

  STATEMENT OF STEVE FLYNN, Ph.D., VICE PRESIDENT OF HEALTH, 
    SAFETY, SECURITY, AND ENVIRONMENT, BP GLOBAL, LONDON, UK

    Mr. Flynn. Thank you, Chairman Murray, Ranking Member 
Isakson, members of the subcommittee.
    I am Steve Flynn, vice president of Health, Safety, 
Security, and Environment for BP PLC.
    We are devastated by the catastrophic events in the Gulf of 
Mexico. I personally want to offer my sincere condolences to 
the families and friends who have suffered such a terrible loss 
and to those in the Gulf Coast whose lives and livelihoods are 
being impacted.
    At BP, safety is our top priority. As I will explain, that 
is not a slogan. It is BP's most fundamental corporate policy.
    I appreciate the opportunity to appear before you today to 
discuss the important steps we have taken to enhance worker 
safety across BP over the past several years. We have had 
challenges, but we have taken a hard look at ourselves. We have 
made serious substantive changes, and we have seen important 
successes.
    The fire and explosion at BP's Texas City refinery in 2005 
was a devastating tragedy. Roughly a year later, the Prudhoe 
Bay spills occurred. These disasters were watershed moments 
that shook us to the core, and we have publicly acknowledged 
our responsibility for them.
    BP also undertook a brutally honest self-examination. We 
knew that we could not change the past, but we were determined 
to learn from it and to fundamentally change the way we operate 
based on what we learned. To do that, BP commissioned 
unflinching, non-privileged examination of the factors that 
caused the Texas City incident. That hard-hitting report led to 
significant changes in our U.S. refineries.
    BP also committed to implementing each one of the 
challenging, but important recommendations of the Baker panel. 
Their review is widely considered one of the deepest and most 
far-reaching internal investigations in corporate history.
    Following the 2005 and 2006 incidents, we developed a 
global agenda to transform our safety culture company wide. 
This is not just a commitment on paper. We have taken real 
steps, observed measurable and sustained results, and invested 
billions of dollars in implementing this agenda.
    The change agenda had four main elements. First, we 
acknowledged that leadership and management oversight is 
critical. The tone from the top matters.
    From the moment that Tony Hayward became CEO in 2007, he 
has made it clear that for BP, safety is our No. 1 priority. BP 
has worked to drive the safety agenda across the entire 
company, starting at the most senior levels and cascading 
through the front line.
    For example, BP formed the Group Operations Risk Committee, 
chaired by the CEO and comprises the company's most senior 
executives. The committee provides valuable safety oversight 
through regular reviews of incidents, detailed reviews of the 
progress of safety-related activities, and identifying areas 
where additional focus is needed.
    BP also enhanced the role of the board-level Safety, 
Ethics, and Environment Assurance Committee, which receives 
regular reports from management on operations and safety 
performance.
    Second, we finalized the development of a single new 
comprehensive operating management system framework. Based on 
global best practices, this drives standardization, including 
standardization of safety practices in BP's businesses 
worldwide. This OMS provides a common way to focus on what we 
know are the key elements of safety--plant integrity and 
investment, systematic procedures to identify and manage risks, 
enhancing workers' capabilities and the expectations of 
leaders, implementation of process safety metrics and audit 
procedures.
    Third, we focused and augmented our training programs 
because we believe that effective training is key to developing 
a robust safety culture. To build capabilities of our 
personnel, BP significantly expanded existing safety training 
at all levels. Rigorous new programs were developed for our 
operations and our craftspeople. In addition, BP has 
established innovative safety training for leadership, which 
has been delivered in conjunction with MIT.
    Fourth, BP has developed robust audits and performance 
metrics that effectively assess and monitor performance. We 
want to understand how our safety performance matches up to the 
standards that we set ourselves and also to identify trends 
that require intervention.
    BP's safety and operations audit team of approximately 50 
auditors audit both BP's internal standards and regulatory 
compliance. Senior management closely monitors audit findings 
and action closure through quarterly performance reports. In 
addition, BP personnel have played a leading role in industry-
wide efforts by the API and the CCPS to identify new indicators 
to measure process safety performance.
    BP is not the same company that existed at the time of the 
Texas City and Prudhoe Bay accidents. While we cannot change 
the past, we have learned from it, made tangible changes, and 
fundamentally strengthened our safety culture as a result. BP's 
first and highest responsibility is to protect the workforce, 
including 23,000 in the United States, and I spend every day 
thinking about how to do this better.
    Consistent with this commitment, we stand ready to learn 
from and apply the lessons of the Deepwater Horizon tragedy. We 
are conducting a non-privileged review of this incident that is 
looking at complex actions and decisions made by multiple 
parties involved, including BP. We will share the results of 
this review so that we and everyone in the industry can learn 
from this terrible event.
    Thank you. And I look forward to your questions.
    [The prepared statement of Dr. Flynn follows:]
   Prepared Statement of Dr. Steven A. Flynn, Ph.D., Vice President, 
          Health, Safety, Security and Environment, BP plc\1\

    Chairman Murray, Ranking Member Isakson, members of the 
subcommittee. I am Steven Flynn, vice president, Health, Safety, 
Security and Environment, BP plc.
---------------------------------------------------------------------------
    \1\ The data described throughout this testimony is accurate to the 
best of my knowledge as of 9 a.m., July 21, 2010, when this testimony 
was prepared. The information that we have continues to develop as our 
response to the incident continues.
---------------------------------------------------------------------------
    At BP, safety is our top priority. We are devastated by the 
catastrophic events in the Gulf of Mexico. We offer sincere condolences 
to the families of the 11 men who lost their lives in the accident on 
the Deepwater Horizon, and we are sorry for the hardships every person 
and business affected by this spill is experiencing. We do not yet know 
why this accident happened. But we are committed to finding out and to 
learning what can be done to prevent tragic events like this in the 
future.
    I joined BP more than 25 years ago and have served in a variety of 
Health, Safety and Environmental (``HSE'') roles. After the incident at 
Texas City in 2005, I joined the team charged with developing a new, 
company-wide safety agenda. Our goal was simple but quite significant: 
make safety the first and highest company priority and fundamentally 
change the way BP operates to reflect that prioritization. As part of 
the change agenda, BP created, in May 2005, a new Safety & Operations 
(``S&O'') function at the Group level which I joined. In November 2007, 
I was appointed vice president of Health, Safety, Security & 
Environment (``HSSE''), a component of the S&O function.
    I am here today to discuss what we have done to enhance worker 
safety over the past several years. I will highlight both the successes 
we have achieved and the challenges we have encountered.

              TEXAS CITY AND PRUDHOE BAY--A TURNING POINT

    The fire and explosion at BP's Texas City Refinery Isomerisation 
unit on March 23, 2005 was a devastating tragedy. Fifteen people died, 
and at least 170 people were injured. That was a terrible day, not only 
for those lost or injured and their families and friends, but also for 
the whole BP community. It shook us to the core. A year later, the 
Prudhoe Bay spills occurred.
    These disasters were two of the lowest points in BP's history. We 
were rightfully criticized by the government, the public, and our own 
employees. We acknowledged our mistakes. But most significantly, those 
events were a watershed moment. In the wake of these accidents, BP 
undertook a brutally honest self-examination--we knew we could not 
change the past, but we could learn from it, and we could shape the 
future by fundamentally changing the way we operate based on what we 
learned.
    As part of that self-evaluation, BP undertook an extensive, non-
privileged examination of the factors that caused the Texas City 
incident. This was not the typical response of a corporation to a major 
disaster, but BP strongly believes in the importance not only of 
learning from incidents itself, but also of sharing those learnings 
broadly in the hope of preventing similar incidents in the future. The 
resulting study, the Mogford Report, is quite self-critical and led to 
many important reforms within the company. Among these were the removal 
of thousands of portable buildings from potentially hazardous areas; 
relocation of non-essential personnel offsite or to newer, hardened 
buildings; removal of all blow-down stacks operating in heavier-than-
air light hydrocarbon service (the type of service involved in the 
Texas City incident); and implementation of enhanced safe control of 
work procedures and training.
    We also incorporated learnings from a number of independent, 
external reviews of the causes of the Texas City incident, including 
the investigation report by the U.S. Chemical Safety Board (``CSB''). 
And, in response to a recommendation from the CSB, BP commissioned the 
BP U.S. Refineries Independent Safety Review Panel, chaired by former 
U.S. Secretary of State James Baker III. The Independent Panel spent 16 
months assessing the effectiveness of the corporate oversight of safety 
management systems at BP's five U.S. refineries and BP's corporate 
safety culture more broadly. Its review is widely considered one of the 
deepest and most far-reaching internal investigations in corporate 
history.
    The Independent Panel issued its report in January 2007, and in it 
made 10 challenging but important recommendations focusing principally 
on BP's U.S. refineries. BP published the report in its entirety.\2\ 
Among other things, the Panel recommended that BP management 
demonstrate leadership on process safety from the top down: implement 
an integrated and comprehensive process safety management system; 
enhance the process safety culture within BP's refineries; and take 
steps to become an industry leader in process safety management. BP 
accepted the Panel's challenge to improve and publicly committed to 
implementing each one of the Report's recommendations. Moreover, BP 
appointed an independent expert to monitor and report on our progress 
in implementing the Independent Panel recommendations. In the 3 years 
since his appointment, the Independent Expert has conducted repeated 
intensive inspections of BP's U.S. refining sites and its management 
oversight of those facilities. He reports to the Safety, Ethics and 
Environment Assurance Committee of the BP Board of Directors, and, just 
as it did with the Independent Panel's report itself, the company 
publishes his annual reports.
---------------------------------------------------------------------------
    \2\ Available at www.bp.com/bakerpanelreport.
---------------------------------------------------------------------------
    In 2006, BP experienced two major leaks on oil transit lines in 
BP's Greater Prudhoe Bay operations. BP again undertook an internal 
investigation and commissioned several external reviews. The outcomes 
of these reviews have also been made public, and they resulted in a 
number of key changes in BP's Alaska business and throughout its U.S. 
operations, including the appointment of an independent ombudsman to 
investigate confidential issues raised by concerned individuals, the 
replacement of miles of pipeline on the North Slope, and the 
enhancement of BP Alaska's corrosion monitoring and technical support 
organizations.
    BP has sought to apply learnings from these tragic events 
throughout its global businesses. As described below, the company did 
not brush aside the events or sidestep its accountabilities. Instead, 
we recommitted ourselves to improving process safety globally and, with 
that, improving the way we do business.

                         THE NEW SAFETY AGENDA

    The agenda we developed to carry out our commitment to making 
safety our first and highest priority and to change the safety culture 
in the company in the wake of the 2005-6 incidents focused on four 
elements:

    <bullet> Leadership and Management Oversight;
    <bullet> Management System Improvements;
    <bullet> People--Safety and Operations Capability Building; and
    <bullet> Audit and Performance Monitoring.

    This is not just a commitment on paper. We have taken real steps; 
observed measurable and sustained results; and invested billions of 
dollars in implementing this agenda.

1. Leadership and Management Oversight
    As we recognized when we began our journey of change in 2005-6, 
leadership and management oversight is critical to the development of a 
robust and effective company-wide culture that prioritizes safety. 
Towards this end, BP has taken a number of steps to drive the safety 
agenda across the entire company, beginning with the most senior 
executives and the board of directors and cascading through all levels 
of the company.
    First, in October 2006, BP formed the Group Operations Risk 
Committee (``GORC''), which is comprised of the company's most senior 
executives. The GORC is chaired by the group chief executive, and 
includes the chief executives of the upstream and downstream 
businesses, as well as safety and engineering functional leaders. The 
GORC provides the foundation for consistent, safe and reliable 
operations, and is responsible for driving a consistent and focused 
safety message company-wide. In its regular meetings, the GORC focuses 
on a number of key areas, including:

    <bullet> Analyzing incidents and discussing key learnings;
    <bullet> Monitoring safety performance indicators;
    <bullet> Reviewing delivery of the short-term risk reduction plan;
    <bullet> Oversight of development and implementation of BP's 
Operating Management System (OMS);
    <bullet> Oversight of safety and operations capability development; 
and
    <bullet> Overseeing implementation of Independent Panel 
recommendations.

    Second, as recommended by the Independent Panel, BP enhanced the 
role of the Board-level Safety, Ethics and Environment Assurance 
Committee (``SEEAC''), comprised of non-executive directors. The SEEAC 
is responsible for, among other things, monitoring and obtaining 
assurance on behalf of the Board related to management of significant 
non-financial BP risks.
    Third, and as noted above, BP adopted the Panel's recommendation to 
appoint an independent process safety expert to advise on the 
implementation of the Panel's recommendations across U.S. Refining. 
Duane Wilson was appointed Independent Expert for a 5-year term that 
began in 2007. Mr. Wilson was a member of the Independent Panel and is 
recognized as an expert in process safety management in the refining 
industry, with nearly 40 years of industry experience. In addition to 
his annual reports, he provides regular updates to the SEEAC based on 
an extensive program of inspections and assessments, conducted by him 
and his team of technical experts, of the U.S. refineries and the 
broader organization.
    Fourth, the company has set new expectations for line management to 
set the right tone by, among other things, having a visible presence in 
the field to reinforce safety as a priority. In a related step, BP also 
strengthened the requirements for those in line management to acquire 
more process safety knowledge and to have stronger technical and/or 
engineering backgrounds.
    Fifth, BP's leaders have a new and robust set of tools to carry out 
their safety responsibilities. For example, comprehensive management 
information--leading and lagging metrics, monitoring of program 
delivery, and safety audit information--is disseminated company-wide. 
Moreover, the chief executives of the business segments and regional 
business leaders have open channels of communication and work together 
to develop safety plans, monitor performance and audit responses, and 
share learnings.

2. Management System Improvements
    Developing an effective safety culture in a large multinational 
company is not something that occurs overnight. Even before the Texas 
City and Prudhoe Bay incidents, we were taking steps to enhance our 
management system to encompass a single comprehensive approach capable 
of standardizing risk identification and mitigation company-wide and 
improving reliability and operational effectiveness on a continuous 
basis. Prior to those incidents, we had relied on a number of different 
management systems inherited from the many heritage companies that now 
form part of the BP family, including Amoco, Arco, and Castrol.
    Following the 2005-6 events, we finalized development of a single, 
new, comprehensive Operating Management System (``OMS'') framework, 
based on global best practices, to drive a standardization in BP's 
businesses worldwide. OMS represents a sustainable approach to managing 
risk and continuously improving through a management system that 
includes consistent standards and practices across all our operating 
businesses. It is at the heart of our enhancements.
    The OMS framework is anchored by a series of ``Elements of 
Operating'' that apply to all business entities in our company. These 
Elements fall into four categories:

    <bullet> Plant--which we define as managing plant integrity and 
investments to produce safe and reliable operations;
    <bullet> Process--which are systematic procedures to identify and 
manage risks and to report and investigate incidents so that lessons 
can be learned and procedures improved;
    <bullet> People--under which we review and enhance workers' 
capabilities and the expectations of leaders; and
    <bullet> Performance--which is the category under which we have 
developed additional leading and lagging metrics for process safety and 
implemented comprehensive management system audits to track performance 
and identify improvement actions.

    A key feature of OMS is its foundation in the principles of 
Continuous Improvement. On an annual basis, every BP entity operating 
on OMS conducts an annual performance improvement exercise during which 
it looks to improve safety performance by effectively identifying 
process safety risks and prioritizing activities to reduce those risks. 
As the system matures at each entity, any gaps will be smaller over 
time. Our operating philosophy is that there are always ways to operate 
more safely and to reduce risk, and OMS provides concrete tools and 
processes to guide our business entities in this process.
    The Elements of Operating and the annual performance improvement 
cycle are implemented on the ground through local operating management 
systems for the particular operating business. These local systems 
build upon the uniform safety standards applicable company-wide to 
encompass the specific local requirements of BP's many individual 
businesses. Local implementation is aided by self-assessments, 
performance monitoring, and audits.
    BP businesses began transitioning to the new OMS framework in 2008 
and, at the end of 2009, all U.S. upstream, refinery, and chemical 
manufacturing locations had completed the transition.

3. Safety and Operations Capability Building
    Effective training is key to developing a robust corporate safety 
culture. To build the capability of our personnel, BP significantly 
expanded existing safety training at all levels, beginning on the front 
lines with our operations technicians and maintenance craftspeople. 
This enhanced training has focused on key elements of process safety 
knowledge and control of hazardous work processes.
    In addition, BP has established an innovative and extensive 
training program for the leadership ranks, including supervisors, 
managers and those executives who oversee operations. This capability 
development framework is ever-expanding and presently involves 
coursework tailored to the following individual audiences:

    <bullet> Operations Essentials--This program is targeted to front 
line supervisors and their managers. It is a modular program delivered 
at the work site, and includes workshop sessions and on-line computer-
based modules that provide in-depth study of a variety of technical 
subjects. This program was specially designed and paced to fit with the 
work environment. By the end of 2009, approximately 2,300 people had 
already begun this program.
    <bullet> Managing Operations--This program is targeted to 
operations management personnel. It is delivered in residential 
regional programs, primarily in the United States and United Kingdom. 
The program was piloted in late 2009 and is being rolled out more 
broadly in 2010.
    <bullet> Operations Academy--This program is targeted to business 
leaders who oversee multiple operations. The program, which has been 
running since 2007, is provided through three 2-week residential 
programs in conjunction with the Massachusetts Institute of Technology 
(MIT). By the end of 2009, approximately 100 managers had graduated 
from this program.
    <bullet> Executive Programs--These programs are also provided in 
partnership with MIT, and consist of 2- to 3-day programs for senior 
executives. The programs cover the key elements of the Operations 
Academy program and programs held to date have had nearly universal 
attendance from BP's top senior executives.

    Each of these programs drives home a uniform set of important 
themes: leadership and culture; management systems; process safety; and 
continuous improvement. They supplement existing basic operational 
training and projects and engineering education programs for relevant 
individuals. These new programs have already proven invaluable in 
establishing a common safety conversation and more consistent safety 
culture company-wide.

4. Audit and Performance Monitoring
    Getting the right leaders, processes, and training in place is 
critical. Effectively assessing and monitoring the company's 
performance is equally critical--and BP has developed robust audits and 
performance monitoring metrics to do so.
    First, BP established a corporate Safety & Operations Audit team. 
The team's first pilot audits were carried out in 2006. The Audit team 
has approximately 50 full-time auditors, recruited both internally and 
externally, based in the United States and the UK. Importantly, each 
auditor is required to have more than 20 years' relevant experience, 
across a wide range of engineering and technical disciplines. The audit 
program is risk-based, operates on a rolling 3-year cycle, and covers 
upstream and downstream activities across the globe. The high-quality, 
comprehensive nature of these audits is one of the ways that BP is 
differentiating itself in its journey to becoming an industry leader in 
process safety management. Audits identify gaps in requirements, 
provide clear actions to close the gaps, and assure verification of 
action closure. Senior management closely monitors audit metrics and 
action closure status through quarterly performance reports. Over 100 
audits have been completed.
    Second, BP developed comprehensive management information that is 
used by GORC and SEEAC members to monitor process safety performance. 
This management information includes process safety metrics and 
leading/lagging indicators, such as number of workforce fatalities, 
number of losses of primary containment, number of process safety 
incidents, number of high potential incidents, number of major 
incidents, number of compliance notices, and number of approved audit 
due date change requests.
                          where we stand today
    BP is not the same company that existed at the time of the Texas 
City and Prudhoe Bay tragedies. While we cannot change the past, we 
have learned from it, made tangible changes, and fundamentally 
strengthened our safety culture as a result. We have focused 
relentlessly on safety as our No. 1 priority--and spent billions to put 
words into actions. We have appointed new leadership, many of them from 
outside BP, across all levels of the company. We have new and better 
safety procedures, policies, and training, and we continuously strive 
to improve the process safety culture at each of our operating 
entities.
    For these reasons, we were disappointed when OSHA issued hundreds 
of citations to BP at Texas City and Toledo after recent audits. 
Although OSHA's discretionary enforcement approach against BP--issuing 
``per-instance'' violations that carry higher cumulative penalties and 
result in disproportionately higher numbers of citations than others in 
industry--is understandable considering the scale of the human tragedy 
that the 2005 Texas City accident represented, we do not believe the 
number of citations or level of penalty is indicative of the management 
of risk on these sites or the level of hazard reduction that has 
occurred since the Texas City accident in 2005. BP is currently in 
discussion with OSHA to resolve their concerns, and to be clear: if 
there are safety improvements that need to be made at those sites--and, 
in the spirit of continuous improvement that characterizes our approach 
to operations, we believe there are always ways to improve--we will 
make them.
    At the heart of this change is our drive to become an industry 
leader in process safety management, which is the core recommendation 
from the Independent Panel. BP is active in many industry associations, 
professional institutions, and technical societies committed to 
improving safety across the oil and gas business, including the 
American Petroleum Institute (API), the International Association of 
Oil and Gas Producers (OGP), the Center for Chemical Process Safety and 
the Mary Kay O'Connor Process Safety Center. BP employees are also very 
active in technical societies such as the Society of Petroleum 
Engineers, the American Society of Safety Engineers, and the American 
Industrial Hygiene Association. BP has hundreds of employees who 
participate in these various groups on behalf of BP, including 320 at 
API alone.
    Our participation in these organizations provides a structured 
format for developing safety standards and improvements, learning from 
incidents, and supporting safety research. For example, BP was an 
active participant in the development of the new API Recommended 
Practices on Buildings and Process Safety Indicators. BP has routinely 
served as a presenter at the API Operating Practices Symposium and the 
Mary Kay O'Connor Process Safety Center International Symposium where 
the focus is learning from incidents as well as new developments in 
process safety. Our affiliation with these and other groups associated 
with improving worker health and safety has been a key part of our 
strategy for improving our overall safety performance.

                               CONCLUSION

    I have described to you our safety journey to date. We have come a 
long way. Of course, our safety journey continues, and, as we strive 
continuously to improve, it will never be complete. Our employees--
including 23,000 in the United States--are responsible for the 
company's success, and we could not exist without them. BP's first and 
highest responsibility is to protect them, and I spend every day 
thinking about how to do this better.
    Consistent with this commitment, we stand ready to learn and apply 
the lessons of the Deepwater Horizon tragedy. As we have done in the 
past, we are conducting a non-privileged review of this incident that 
will take an unflinching hard look at the actions of everyone involved, 
including ourselves. This incident included a complex set of decisions 
and actions taken by multiple parties--BP and others. The results of 
this examination will be public. We are also eager to learn from other 
investigations and the reviews of technical experts external to the 
company who may also investigate the incident. At this time, we do not 
yet know why the accident happened or why fail-safe mechanisms failed. 
As noted, when we obtain answers to these questions, BP will openly 
share the findings and learnings with the public.
    In the meantime, since the April 20 explosion and fire, BP has been 
carefully evaluating the subsea blow-out preventers used in all our 
drilling operations worldwide, including the testing and maintenance 
procedures of the drilling contractors using the devices. We will 
participate in industry-wide efforts to improve the safety and 
reliability of subsea blowout preventers and deep water drilling 
practices. And we will work closely with other interested parties as we 
do so.
    We know that we will be judged by our response to this incident. No 
resource available to this company will be spared. Please know that we 
and the entire industry will learn from this terrible event, and emerge 
from it stronger, smarter and safer.
    Thank you, and I look forward to taking your questions.

    Senator Murray. Thank you, Mr. Flynn.
    Mr. Flynn, I want to start by talking about BP's culture of 
safety. Your CEO, Tony Hayward, said that he has a laser focus 
on safety within the company.
    Well, I am fundamentally concerned that the culture of the 
company is anything but safety-oriented, despite what we are 
hearing from senior management. In fact, we know that BP has a 
record of trying to say the right thing, but following its many 
disasters here in the United States, there is disturbingly 
little evidence of actual changes on the ground.
    To that point, following the 2006 pipeline leaks in Prudhoe 
Bay, AK, Mr. Hayward's predecessor, John Brown, claimed that 
the company would get the priorities right. And Mr. Brown went 
on to say, ``We don't just sort them out on the surface. We get 
them fixed deeply.''
    Well, Mr. Brown made that statement just 1 year after BP 
Texas City refinery explosion that killed 15 workers and 
injured 170 more. That was the explosion that led to the 
creation of an independent panel, chaired by former Secretary 
of State James Baker, and they produced a series of 
recommendations to BP to fix its leadership, its culture, and 
its practices.
    But just this past November, BP was fined a record $87 
million for 270 violations of the 2005 settlement agreement to 
repair hazards at the Texas City refinery, hazards that the 
company committed to fixing, but obviously never did, and 439 
new willful violations for failure to repair pressure release 
safety devices--439 new violations. And I should mention that 
since 2005, there has been four additional fatal accidents at 
the Texas City refinery.
    So, Mr. Flynn, I would contend that in the last 5 years, 
nothing has been fixed deeply. But the company, as we know, has 
made record profits and kept production running at all costs. 
So can you explain to me, to this committee, and importantly, 
to the American people, what exactly a culture of safety means 
to BP?
    Mr. Flynn. Since the accidents at Texas City and Prudhoe 
Bay, there have been very significant changes. That started 
with a commitment from the top to put safety as the No. 1 
priority for the company.
    But it wasn't just words. What also happened was there was 
investment, investment to upgrade plant, to remove buildings, 
to harden buildings, to replace pipelines, to improve plant. 
Real, tangible changes on the ground. Also, we had to look at 
systems, and we focused our priority on putting in place 
required processes for managing the integrity of plant and also 
for safe work practices.
    The other investment was in people. Because at the end of 
the day, it is the workers and their leaders that need to 
understand how to implement those practices and how to make the 
workplace safe.
    But not only did we do that, we have to understand we need 
checks and balances. And that is why we hired some of the best 
people we could find in the industry to join our audit team. We 
do very rigorous, detailed audits to go out and check when 
things aren't on track. And we put in place actions to close 
them.
    So we have made progress over the last 5 years. Things have 
really changed in BP.
    Senator Murray. Well, you just described to me and the 
committee a number of processes and plans. Can you tell me 
exactly when you expect to have that all in place because, 
frankly, I am kind of tired of having to worry about companies 
that handle processes and dangerous and hazardous materials in 
unsafe ways that obviously our workers and our communities are 
impacted by.
    So you described all these processes and these plans and 
these words on paper. When is that all going to be in place?
    Mr. Flynn. Significant changes have already taken place 
over the last 5 years. So there really have been very 
significant changes, physical changes on the ground, systems 
put in place, and training underway.
    Now it is a multiyear program, and I believe there will 
always be more to do. That is what I spend my entire career 
doing.
    Senator Murray. But you can't give us a definite timeline 
for when these--I mean, last November, 270 violations as I just 
described to you.
    Mr. Flynn. Yes. So as far as the violations at Texas City 
were concerned, we were very disappointed by the outcome of 
that audit. We believed that we had a program which we had 
agreed with OSHA, a year-on-year program to abate those 
findings and to put in place the requirements----
    Senator Murray. So you would agree with me that these 
process and plans haven't been put in place yet?
    Mr. Flynn. We had put in place a program, significant 
progress had been made, and we understood that we were--we had 
a program----
    Senator Murray. Are you satisfied with the process?
    Mr. Flynn. I believe that we have made progress that was 
required that we committed with OSHA and that we had fulfilled 
our commitments. Clearly, there was a difference with OSHA. We 
are working with OSHA to resolve those differences.
    But at the end of the day, we want the same thing as OSHA 
in that we want a safe workplace, and we want our workers to go 
home safely. So we will fulfill those commitments.
    Senator Murray. But you can't give us a specific timeline 
to do that?
    Mr. Flynn. I would be happy to work with your staff to 
explain what the timeline is.
    Senator Murray. Well, I think we would all be interested in 
seeing that.
    Let me ask one more question before I turn it over to 
Senator Isakson.
    There are a lot of accounts from workers on the Deepwater 
Horizon who report that it was BP engineers and staff who kept 
cutting corners on safety, overruling additional testing, 
denying the use of proper equipment, and rushing the completion 
of the well in order to save costs. In fact, evidence presented 
just this week suggest that BP failed to act on reports of 
failed equipment.
    Do such reports like that depict a culture of safety that 
you are trying to establish?
    Mr. Flynn. The reports that you described certainly concern 
me. But we don't know yet what the cause of the accident on the 
Deepwater Horizon was.
    Senator Murray. Well, does it bother you that you know that 
people were cutting corners and overruling tests and denying 
the use of proper equipment?
    Mr. Flynn. I have heard the allegations. And of course, if 
workers have concerns, then naturally, we would be concerned.
    Senator Murray. My question to you is does that bother you 
that that is going on in the company? You are the head of 
safety.
    Mr. Flynn. We don't know what caused the accident on the 
Deepwater Horizon. Of course, if workers are concerned, then 
naturally, I am concerned. And when workers raise concerns, we 
investigate them and put in places to correct that. But on the 
Deepwater Horizon rig, it is a very complex, very complex 
incident with many factors and many different parties involved, 
and we need to understand all the facts so that we can put in 
place actions to prevent recurrence.
    Senator Murray. Senator Isakson.
    Senator Isakson. Thanks.
    Dr. Flynn, is BP's relationship with Transocean a 
contractual relationship as far as the Deepwater Horizon?
    Mr. Flynn. Yes.
    Senator Isakson. Do you know what provisions that contract 
requires for safety on behalf of Transocean in relation to BP's 
culture of safety?
    Mr. Flynn. What we require is that there are contractual 
requirements for health, safety, and environment when we work 
with contractors. So it would have been required that the Gulf 
of Mexico business put contractual requirements for safety into 
that contract with Transocean and that they also followed up on 
those requirements. I am not aware of the details of those 
requirements, but I know that is what BP would expect.
    Senator Isakson. If your company and its lawyers would 
allow you to do so, would you see if we could have a copy of 
that contract?
    Mr. Flynn. I will work with your staff to see what we can 
provide.
    Senator Isakson. Thank you.
    The third item in your testimony on the commitment of BP to 
safety reads as follows:

          ``Third, to build the capacity of our personnel, BP 
        significantly expanded safety training at all levels, 
        beginning on the front lines with our operational 
        technicians and maintenance crafts people and including 
        an innovative and extensive training program for the 
        leadership ranks.''

    Now this is referring to post Houston time, I believe. Do 
you train Transocean, or do you contract with them and rely on 
their training?
    Mr. Flynn. We require them to provide competent people to 
do the job. So it is a contractual requirement that their 
employees are fit to do the tasks.
    Senator Isakson. On an offshore rig, when you contract with 
a subcontractor to actually do the drilling, do you have a BP 
officer who is the supervisor of the rig that is ultimately the 
decisionmaker, or do you actually delegate to Transocean the 
decisionmaking process with regard to stops, tests, safety, 
etc?
    Mr. Flynn. The details of how decisions are taken and who 
takes what, that should be set out in the contract ahead of 
time. So it could be that the BP company man onboard has 
certain decision rights and that the contractor has certain 
decision rights.
    Those would be set out ahead of time. I don't know in this 
particular case what the details were.
    Senator Isakson. Understanding that you obviously are doing 
a lot of internal investigations post explosion to try and find 
out what happened, and I know that is an ongoing procedure. So 
are others. Has BP implemented any change in standards and 
safety on offshore rigs since the Deepwater Horizon explosion?
    Mr. Flynn. Absolutely. Although the investigation is 
ongoing, if we find things that need responding to, then we 
absolutely do that. So already, we have initiated tests of 
blowout preventers around our operations and looked at the 
procedures that our contractors use for testing and maintaining 
blowout preventers would be an example.
    Senator Isakson. In your fourth requirement or fourth 
statement on the culture of safety, it reads from your 
statement, ``BP has developed robust audits and performance 
monitoring metrics to effectively assess and monitor the 
company's performance.'' And I assume that also applies to the 
subcontractors working on behalf of the company. Is that 
correct?
    Mr. Flynn. What we would expect is that we would audit that 
our businesses are fulfilling BP's requirements. And one of 
BP's requirements would be that they have safety requirements 
in their contracts with contractors that set out who is going 
to do what on safety, and that would include management of 
subcontractors.
    And we would also expect that a business would go and check 
that those contractual requirements were being implemented in 
the way that a contractor was managing its subcontracts. So we 
expect our people to audit that BP's requirements are in place 
and that they are fulfilling their obligations.
    Senator Isakson. As the chief safety officer for BP, do you 
have a required paper trail of safety concerns? If a worker, 
either contractor or BP employee, reports a safety concern 
either on an offshore rig or at a refinery site, do you have 
required paper trail that you, as the safety officer, require 
them to have to see to it that, first, it is noted and, second, 
it is investigated?
    Mr. Flynn. There are multiple channels. If a worker raises 
a concern with his supervisor, then we would expect them to 
take action to address a safety issue immediately. Our 
requirement is that they make it safe. If the concern is one 
that requires an investigation, and we set out at what level an 
internal investigation would be required, then that would need 
to be documented, and that is auditable.
    But we also have other channels for workers to raise 
concern, independent channels. Inside the company, we have our 
confidential anonymous line, a 1-800 number where people could 
raise concerns. And that goes to a separate function, our 
compliance and ethics function who would carry out an 
independent investigation, would work out what was going on, 
and then would give feedback to the employee.
    In the United States, we also have an external independent 
person, the judge, Judge Sporkin, the ombudsman. Confidential 
calls could be made to him. It would be investigated and 
documented. So, yes, when concerns are raised, then they would 
be documented.
    Senator Isakson. I thank you for your testimony and would 
appreciate it if you would let the committee know if you can 
supply us with that contract between BP and Transocean.
    Mr. Flynn. I will work with your staff to see what we can 
do.
    Senator Isakson. Thank you very much.
    Senator Murray. One question really quickly before I turn 
it over to my committee members. You mentioned in a response to 
one of my questions that you have 50 outside safety auditors. 
Can you provide the members of this committee with their 
audits?
    Mr. Flynn. I would have to work with your staff to see what 
we can provide as information on audits.
    Senator Murray. OK. Thank you.
    Senator Franken.
    Senator Franken. Dr. Flynn, thank you for being here today.
    I know that you have been the target of a lot of anger and 
frustration of late, and I appreciate your being here. And 
thank you for your expression of empathy and sadness for those 
who died on the rig.
    When we had the hearing a few weeks ago, one of the fathers 
of one of the men who died on the rig was here. And he said 
that no one from BP had ever talked to him and expressed their 
apologies or condolences. Have you talked to any of the members 
of the families of those who died?
    Mr. Flynn. I have not personally talked to them, but I 
would have expected that BP people would have done that.
    Senator Franken. You would have expected it?
    Mr. Flynn. Normally, if there is an accident, then our 
business people would get involved. But I don't know the 
details in this particular case.
    Senator Franken. So you don't know for sure whether anyone 
from BP has contacted any of those families, do you?
    Mr. Flynn. I don't know that, but I could find out.
    Senator Franken. Well, this gentleman said that no one from 
BP had talked to him, and I think you should know that.
    The Center for Public Integrity recently published a report 
noting that BP is responsible for 760 of the 761 egregious and 
willful--that is what they call them--OSHA violations over the 
past 3 years. This is post-Texas City, of course, when you were 
going to change your culture of safety.
    That is a pretty hard statistic to believe. Do you have any 
comment on that?
    Mr. Flynn. We were disappointed with the 760 violations 
because we believed that we were in compliance with the 
requirements of those orders.
    Now what I would say is that in making those citations, 
OSHA did use a differential approach. They did do a per-
instance citation versus in other cases where they would find a 
system finding. And so, that generates a higher number of 
citations. We wouldn't be comparing apples with apples in other 
cases.
    All of that said, we are absolutely committed to resolving 
those differences with OSHA, to fixing the problems. And at the 
end of the day, OSHA and ourselves do want to achieve the same 
thing, a safe workplace and safety for workers.
    Senator Franken. OK. Well, I mentioned in my opening 
statement my conversation with Mr. Drevna, the president of the 
National Petrochemical and Refiners Association. And I was 
asking him about the industry's efforts to self-monitor and 
self-regulate. And in response, he explained that there were 
efforts within his group to set and meet industry safety 
standards, as I said, within their trade group.
    And then when I asked, when I mentioned this figure, 760 
out of 761, I mean, it makes BP seem to be something of an 
outlier. And this is an egregious and willful--egregious and 
willful, willful violations. So when I asked him why more 
hadn't been done to correct the problems at BP, he replied that 
BP wasn't a member and that it was the only major refinery that 
wasn't a member.
    Why aren't you a member of that trade association, which 
seems to have at least some self-policing within their own 
group on safety? I mean, the 760 of 761 seems to suggest that 
you may be something of an outlier.
    Mr. Flynn. I have talked about the 760 and how a different 
approach was taken on that and the fact that we are working to 
resolve those differences with OSHA. I don't believe that we 
are an outlier, and we work with multiple trade associations, 
both in the USA and around the world. So we certainly have----
    Senator Franken. You work with them, you say, but I am 
asking why you aren't a member of a trade group that self-
polices its safety standards? And yet, you are the only major 
refinery that operates in the United States that isn't a member 
of this self-policing trade association.
    Mr. Flynn. I will need to look into the specific situation 
with the NPRA. I understood that we were a member of the NPRA 
and so would need to find out--
    Senator Franken. You thought you were a member of this?
    Mr. Flynn. BP certainly has been a member of NPRA. So 
perhaps something has changed. I will need to look into it and 
get back to you.
    Senator Franken. OK. Thank you very much.
    Senator Murray. Senator Bennet.
    Senator Bennet. Thank you, Madam Chairman.
    And thank you, Dr. Flynn, for your testimony.
    I wanted to follow up on some of the questions the ranking 
member was asking. When you answered, you said that when 
workers raise concerns, ``we collect them and we document 
them.'' Today, in the New York Times--and I also recognize that 
the investigation is ongoing and that conclusions haven't been 
reached. But there is information that is coming out every day.
    In today's New York Times, there is a story that recounts a 
troubling confidential survey that was taken of the workers on 
the Deepwater Horizon in the months leading up to the 
explosion. Among other things, the story tells of how workers 
``often saw unsafe behaviors on the rig and voiced concerns 
about poor equipment reliability, which they believed was the 
result of drilling priorities taking precedence over planned 
maintenance. One worker commented at 9 years old, Deepwater 
Horizon has never been in dry dock. We can only work around so 
much.''
    I would be interested to know, just in the wake of this 
horrible accident, what specifically BP has done to ensure that 
deferred maintenance is actually being carried out and that 
drilling isn't taking a priority over the maintenance, either 
planned or not, of your assets around the world.
    Mr. Flynn. There are two aspects to that. I mean, first, at 
the highest level, we would never put work above safety, the 
need to make progress above safety, and we wouldn't expect 
those who are contracting with us to do that. In terms of 
maintenance for our own operations, we have put in place 
standards for making sure that safety-critical maintenance does 
get done and is delivered.
    Senator Bennet. Have those been changed since the Deepwater 
Horizon accident?
    Mr. Flynn. Our standards haven't changed. Those standards 
would require that we have fit-for-purpose, safety-critical 
maintenance up to date.
    Now if there is something that is happening in the contract 
and with our contractors, then that is something that we would 
need to look at. I know we have already looked at blowout 
preventers critically----
    Senator Bennet. I will come to that in a second. I am just 
trying to figure out--it would appear that if the standards 
were in place that they weren't followed in the case of the 
Deepwater Horizon.
    I understand the investigation is still going on. But what 
has BP done to assure itself that the standards are being 
followed and that the priority on safety that you are 
discussing actually is being carried out in your operations 
today? Have you changed anything in the day-to-day operations 
of your rigs around the world since the Transocean disaster?
    Mr. Flynn. We already had in place requirements for that to 
happen. That would already be there. It is already a 
requirement. We would expect audits, and we would expect 
maintenance to be up to date.
    Whether there has been a specific new move on that, I am 
not aware of it because as far as the accident is concerned, 
there could be multiple factors, and we don't want to jump to 
early conclusions on that----
    Senator Bennet. I understand that. But I would, if I were 
reading the things that you also are reading--I guess I will 
try one more time--rather than expecting that people are 
actually fulfilling their obligations, what are you doing to 
assure that people are fulfilling their obligations?
    Mr. Flynn. We do audits of our contractors around the 
globe, and we expect our operations to be doing those audits 
and making sure that maintenance is up to date. This is one of 
many factors that has come out during the investigation.
    Senator Bennet. What are the tests of the blowout 
preventers showing?
    Mr. Flynn. I can't say what has happened in the tests to 
date. I know the tests have occurred, and we wouldn't--and if 
there was a problem with any of the blowout preventers that we 
have, then we would have looked at that, and we would have made 
sure that we could operate safely.
    Senator Bennet. Could you let the committee know what the 
results of those tests have been?
    Mr. Flynn. I will work with you.
    Senator Bennet. And I guess I would be interested to know 
what other tests of safety equipment or other equipment have 
been done around the world since the accident happened. Are you 
aware of other things besides simply testing the blowout 
preventers?
    Mr. Flynn. Can I work with your staff to give an update on 
the things that have happened?
    Senator Bennet. Sure. What I think would be most useful to 
the committee would be to know what tests you have done since 
the accident occurred as a result of the accident and what 
those tests have shown. I think that would be helpful to know.
    Mr. Flynn. OK. I understand that.
    Senator Bennet. Thank you, Madam Chairman.
    Senator Murray. Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Thank you, Madam Chair.
    Sir, we appreciate you being here and thank you for your 
testimony.
    As Senator Franken and others, I know, have noted, we share 
a broad sense of condolence as it relates to the families who 
lost loved ones, and we appreciate any expression of that 
sorrow and condolence.
    I wanted to ask you principally about a news article. I 
will read the headline and then provide somewhat of a summary 
and ask you a few questions. This is from The Observer, Sunday, 
July 18 of this year. Headline, ``BP Oil Spill Failed Safety 
Device on Deepwater Horizon Rig Was Modified in China.'' That 
is the title of the article.
    Madam Chair, I would ask consent that this article be made 
part of the record.
    Senator Murray. Without objection.
    [The information referred to follows:]

                     [The Observer, July 17, 2010]

                             (By Tim Webb)

      BP Oil Spill: Failed Safety Device On Deepwater Horizon Rig 
                         Was Modified In China

        BLOW-OUT PREVENTER WAS SENT TO FAR EAST AT BP'S REQUEST 
                      RATHER THAN OVERHAULED IN US

    BP ordered the owner of the Deepwater Horizon rig, whose explosion 
led to the worst environmental disaster in US history, to overhaul a 
crucial piece of the rig's safety equipment in China, the Observer has 
learnt. The blow-out preventer--the last line of defence against an 
out-of-control well--subsequently failed to activate and is at the 
centre of investigations into what caused the disaster.
    Experts say that the practice of having such engineering work 
carried out in China, rather than the US, saves money and is common in 
the industry.
    This weekend BP remained cautiously optimistic that the cap placed 
on top of the Gulf of Mexico well on Thursday night would continue to 
hold back the torrent of oil. It is the first time the flow has been 
stopped since the accident happened almost three months ago. But BP 
said that the pressure readings from the Macondo well were not as high 
as it had hoped, which could indicate that it has ruptured and that oil 
could be leaking out somewhere else.
    There is no evidence that the significant modifications to the 
blowout preventer (BOP), which were carried out in China in 2005, 
caused the equipment to fail. But industry lawyers said BP could be 
made liable for any mistakes that a Chinese subcontractor made carrying 
out the work. It would be almost impossible to secure damages in China, 
where international law is barely recognised.
    It is understood that lawyers for Cameron International, the 
manufacturer of the BOP, will argue the device was so significantly 
modified in China that it no longer resembled the original component, 
and that Cameron should therefore not be held liable.
    Transocean, the owner of the Deepwater Horizon, which bought the 
BOP from Cameron, has already told congressional hearings into the 
disaster that the modifications were carried out at BP's request and 
``under its direction'' as the lessee of the rig. BP and Cameron 
declined to comment this weekend.
    Responding to the latest developments in the Gulf, President Obama 
said that it was too early to say if the well had been permanently 
fixed. ``We're moving in that direction, but I don't want us to get too 
far ahead of ourselves,'' he said.
    BP has been monitoring the pressure inside the well since Thursday. 
Thad Allen, the retired Coast Guard admiral overseeing the response 
effort, said that pressure of about 7,500 pounds per square inch would 
show the well was intact, while pressure that lingered below 6,000 psi 
would indicate it had been damaged and could be leaking. The pressure 
on Friday night remained at about 6,700 psi and was rising only 
fractionally.
    Allen has told BP to step up monitoring for any seabed breaches and 
gather additional seismological data to detect any pockets of oil in 
the layers of rock and sediment around the well.
    This week David Cameron will travel to the US to meet Obama and 
other politicians where he will stress the importance of BP to the UK 
economy. Business figures such as Lord Jones, the UK trade ambassador 
and former CBI boss, criticized Cameron for not being sufficiently 
supportive of the company last month after he said that he ``understood 
the US government's frustrations'' over BP's failed attempts to stop 
the leak.
    A government adviser said that Cameron and Obama shared common 
interests over the crisis, and that both wanted BP to survive the 
incident. BP accounts for over a tenth of all share dividends paid by 
UK companies, and pension funds rely on the income it generates. 
Politicians in the US want BP to make enough profits to pay potentially 
billions of dollars in compensation and damages arising from the spill.

    Senator Casey. Sir, I wanted to ask you a couple of 
questions. Here is the lead on the story. It says, and I am 
quoting,

          ``BP ordered the owner of the Deepwater Horizon rig, 
        whose explosion led to the worst environmental disaster 
        in U.S. history, to overhaul a critical piece of the 
        rig's safety equipment in China, The Observer has 
        learned. The blowout preventer, the last line of 
        defense against an out-of-control well, subsequently 
        failed to activate and is at the center of the 
        investigation into what caused the disaster.''

    The third sentence,

          ``Experts say that the practice of having such 
        engineering work carried out in China rather than in 
        the U.S. saves money and is common in the industry.''

    Later in the article, just to put something on the record 
that is clear as to what is known or not known by the author, 
it says, and I quote, in the fourth paragraph,

          ``There is no evidence that the significant 
        modifications to the blowout preventer, which were 
        carried out in China in 2005, caused the equipment to 
        fail.''

    OK? I am just giving you the summary, and I wanted to make 
sure that was made part of the record as well, that reference 
to no evidence. But I have a couple of questions.
    First of all, one of the threshold questions is, Did BP 
order this overhaul work on the blowout preventer be done in 
China?
    Mr. Flynn. I am not aware of the answer to that. It is 
presumably something that may be looked at in the scope of the 
investigation, but it is not something I know.
    Senator Casey. From your understanding of the contractual 
relationship between BP and Deepwater Horizon, would BP have 
the authority to order that that type of work be done in China 
or anywhere else?
    Mr. Flynn. I don't know the answer to that. The area that I 
am aware of is that we would have safety requirements in there, 
but going beyond that isn't something I would know about.
    Senator Casey. Based upon your answer to those two 
questions, I am assuming, but I want to ask--you don't know 
whether or not these modifications were done in China?
    Mr. Flynn. I don't know that.
    Senator Casey. OK. Are you aware of modifications to the 
blowout preventer that were done in 2005, any modification, 
anywhere?
    Mr. Flynn. I am not aware of that.
    Senator Casey. OK. Are you--do you have any information 
about or knowledge about--I am assuming by the answers to the 
first couple of questions, you don't have knowledge about the 
contractual relationship as it relates to any kind of 
modification, and you also don't know whether the modifications 
were done in China.
    But do you have information or knowledge about whether this 
is a practice in the industry to have such modifications done 
in China as opposed to the United States or anywhere else to 
save money? Do you have any information or knowledge about 
that?
    Mr. Flynn. I don't have any knowledge of that.
    Senator Casey. I would ask you, because we have limited 
time and just in order to make the record complete, if you 
would go back and check whether or not you have any other 
information in written form that relates to these questions and 
make that available to the committee. And also I would ask that 
you seek information from the leadership of BP. If you don't 
have the information, you don't have the knowledge, someone 
does--to make that part of the record.
    Because, obviously, this blowout preventer is central to 
the investigation. We ought to know in the United States, I 
think the world needs to know, whether or not an action was 
taken to make modifications to the blowout preventer, as a 
cost-saving measure, as opposed to, making sure that those 
overhauls or modifications were done with an eye toward 
quality.
    And I realize your testimony today is that you don't have 
knowledge about that. But we need to know the answers to these 
questions. And I know I am out of time, but I appreciate your 
forthright answers.
    Mr. Flynn. We will work with you.
    Senator Murray. Senator Hagan.

                       Statement of Senator Hagan

    Senator Hagan. Thank you, Madam Chairman.
    Dr. Flynn, thank you for being here today. I have certainly 
had many prayers going out to the family members of the 11 
individuals that were killed on the rig, and certainly, we are 
all so concerned about the devastation that has wreaked havoc 
in the whole Gulf area having to do with the explosion and 
obviously the leaks.
    I wanted to start by talking about your thoughts on the 
Baker report that was released in January 2007. And I 
understand after the 2005 refinery explosion in Texas City that 
BP put together this Baker report, chaired by former Secretary 
of State James Baker, and the report was released in January 
2007.
    And just one paragraph, the final report finds that BP did 
not provide effective process safety leadership and did not 
adequately establish process safety as a core value across all 
of its five U.S. refineries. And the report noted that BP 
emphasized personal safety in recent years, but did not 
similarly emphasize process safety and that BP did not always 
ensure that adequate resources were effectively allocated to 
support a high level of process safety in its refineries.
    The panel found instances of a lack of operating 
discipline, toleration of serious deviations from safe 
operating practices and apparent complacency toward serious 
process safety risks at each refinery. And I understand that 
the process safety hazard is one that can cause major accidents 
involving fires, explosions, and the release of toxic 
materials.
    With that background, as you know, the Baker report 
provided 10 recommendations. Can you tell me what BP has 
learned from the Baker report and which recommendations have 
been implemented, and can you provide specific examples? And 
then I have a series of questions to follow up with that.
    Mr. Flynn. Yes. The Baker panel investigation was very 
deep, very hard-hitting, and to be honest, a difficult read. 
But we accepted it. We knew we had to change. And so, we have 
been working tirelessly to implement those Baker 
recommendations, and I believe they have influenced the 
industry, too.
    And so, what we have done is each of the recommendations 
are incorporated into a plan. For example, they talked about 
the tone at the top and leadership. We made changes, and our 
CEO Tony Hayward, the board who met with the Baker panel, the 
executives who met with the Baker panel, certainly heard that, 
and they made that personal commitment.
    But it is much more than about their words and the actions 
that they take personally. It also has to translate into 
physical changes in the plant. And the Baker panel report 
talked about changes that needed to occur, engineering changes, 
those sort of things. And there has been billions of dollars 
invested--a billion dollars at Texas City, tens of billions of 
dollars across BP--to make engineering changes to reduce risk 
and tackle process safety issues.
    The Baker panel talked--a central theme was a comprehensive 
system for managing risk and driving continuous improvement. 
And that is why we developed the operating management system 
that brought together all the standards that we have been 
working on to make sure it was comprehensive, risk-based. That 
has been implemented now in all of our major operations in the 
United States. That has been a very important change.
    Then, finally, they talked about process safety capability, 
and we recognized that that had to be at all levels in the 
company. Not only do workers in the front line need to know the 
things they need to know to work safely, but so do supervisors, 
so do managers. We have even sent our executives back to 
college at MIT to learn about process safety as relevant to 
them and those type of things.
    But finally, very importantly, what the Baker panel and 
others have said is that we needed a balanced set of leading 
and lagging metrics, not to rely on one measure alone. So we 
have put those in place, and our executives and our board spend 
a great deal of time on those leading and lagging metrics, and 
that is backed up by independent audit.
    So that is a summary of the changes. It has been very 
substantive. It has been huge for us.
    Senator Hagan. Has BP issued a follow-up report addressing 
these safety recommendations and the corrective measures taken 
by BP?
    Mr. Flynn. We have provided update. But more importantly, 
the Baker panel themselves recommended that we appoint an 
independent expert that reports in at the board level, and we 
have done that.
    Duane Wilson, the independent expert who was a member of 
the Baker panel, reports in to a nonexecutive committee of the 
main holding company board, and he does independent inspections 
in those U.S. refineries. He gives an annual report which we 
make public, as we did with the Baker panel report, and it says 
what is good and where we need to try harder. So we have done 
that.
    Senator Hagan. Is he looking into what happened on the 
Deepwater Horizon?
    Mr. Flynn. His remit is very specifically the Baker panel 
report and the five U.S. refineries and the corporate aspects 
of those recommendations. So that is his scope. There is an 
investigation going on into Deepwater Horizon, which is quite 
separate.
    Senator Hagan. Are any of the recommendations from this 
report, have they failed to be implemented in the 3\1/2\ years 
since the report was issued?
    Mr. Flynn. The report was very extensive, and in a sense, 
it wasn't about Texas City and the things we needed to do to 
comply. The challenge that the Baker panel gave us was to 
become an industry leader. And so, in many ways, the challenges 
that the Baker panel report sets out for us will never be 
complete in the sense that they are ongoing.
    Setting the tone at the top isn't something you do once. 
Monitoring leading and lagging indicators isn't something you 
do and then you move on. And so, I would say the Baker panel 
report has just been fundamental in sort of changing the way we 
think. It has been a great gift.
    So there are many things in it which you can close out, and 
we have had a prioritized year-on-year program to deliver those 
which the independent expert views and our nonexecutive 
directors would look into. But we recognize this is a journey.
    Senator Hagan. I don't have the numbers in front of me 
right now, but as I recall, BP had somewhere in the 
neighborhood of 700 egregious violations. Would those have been 
a part and parcel of recommendations that should not have 
happened if the Baker report recommendations had been followed?
    Mr. Flynn. The citations that OSHA gave after the audit was 
a big disappointment for us because we believed that we were 
meeting the requirements of the settlement. So we were 
disappointed, and we are working with OSHA to resolve that 
difference.
    The violations, the 700 of them, OSHA had chosen to give 
those on a per-instance basis, and so it is a large number. It 
is not an apples with apples with the way that OSHA has 
typically done that.
    But at the end of the day, we are committed to working with 
OSHA to closing out and meeting all of the requirements of the 
settlement and working cooperatively because at the end of the 
day, we want the same thing as OSHA does. We want a safe 
workplace. We want to make sure that we are putting things 
right.
    Senator Hagan. Thank you, Madam. My time is up. Thank you.
    Senator Murray. OK. I understand Senator Merkley has 
conceded to let Senator Mikulski go ahead of him as she has a 
time constraint.
    Senator Mikulski.

                     Statement of Senator Mikulski

    Senator Mikulski. Thank you very much, Senator Murray, for 
conducting this hearing.
    I apologize. I was at an Intel hearing and had to come up.
    Dr. Flynn, good to see you. Last week, I held a hearing as 
my responsibility for NOAA on the consequences of using 
dispersants in the Gulf. My question to you sir, is, No. 1, in 
your work, are you looking at the impact of the use of 
dispersants on workers' health?
    Mr. Flynn. Absolutely. Dispersants are being used in the 
response. They are approved. Out there in the response, we 
have--there are multiple agencies, in fact.
    Senator Mikulski. I know that there are multiple agencies--
and that is the problem. There are multiple agencies that need 
to conduct epidemiological surveys.
    Let me get right to what we were told at the hearing. One, 
and I will tell you it is by an advocacy group. But what they 
said was that any oil cleanup worker under contract with BP, if 
they show any sign of a medical problem, must go to a care 
center only run by BP. According to them that when workers 
presented themselves--for example, BP cleanup contractors were 
not allowed to go to the West Jefferson Medical Center but were 
told that they had to go to the BP EMS tent.
    And that anyone trying to get information--we are not 
talking about individual patient information, but 
epidemiological information, BP was not forthcoming. Is it true 
that BP cleanup contractors, if they show any respiratory 
problems or any case of blisters on their feet, blisters on 
their hands, things that seem to be appearing, are they 
mandated only to come to the BP EMS, or can they go anywhere to 
get treatment?
    Mr. Flynn. We provided medical support, but as I understand 
it, we couldn't limit where--people are perfectly welcome to 
see their own physicians. But what we have done is tried to put 
in place medical provisions so that people can get early 
treatment and stop things from getting worse.
    Senator Mikulski. I just want to clarify, Dr. Flynn, I know 
that BP has an emergency medical service facility or tent or 
whatever there. But there is also the West Jefferson Medical 
Center and some others. When somebody comes in off the boat, 
comes in off the beach, if they are having respiratory 
problems, which we are interested in, blisters on their hand 
from picking this stuff up, which may not only be an impact of 
the oil but also may be an impact of the dispersant, which has 
actually been banned in some areas, are you saying that they 
can go to any medical facility of their choosing? And they are 
not mandated to come to the BP EMS?
    Mr. Flynn. Yes, what you have described gives me concern. I 
have not heard of that, but we would be happy to look into it. 
What we want for our workers is the best treatment that they 
can get. Our highest priority is the safety and health of the 
workers in the response.
    So I think that what we would want to do is to make sure 
they got the best treatment that they could. We have also 
committed to having independent health monitoring done. Now we 
won't do that. We want that done independently, and we want 
that done by the--
    Senator Mikulski. What is the independent method for doing 
that?
    Mr. Flynn. Well, we are working with Health and Human 
Services, with the right agencies so that they agree to a 
protocol and a way of carrying it out.
    Senator Mikulski. Do you have that protocol established 
now?
    Mr. Flynn. I don't think that is for BP to propose. I think 
that is for the----
    Senator Mikulski. But is that protocol in existence, and 
you are complying with it?
    Mr. Flynn. I don't think it is in existence. But we are 
monitoring the health of people and through the sort of things 
you have described, and we are committed to long-term studies. 
And I could get information when more is available.
    Senator Mikulski. Doctor, we are, of course, concerned 
about the care of individual people. But, we are also concerned 
about epidemiology, which tells us the consequences of what is 
going on in the Gulf and determines both care and also the 
consequences of what is being used.
    One of the things that seems to be emerging is that some 
pharmacists in the area have said that the use of asthma and 
respiratory over-the-counter medicines were up 10 percent. Now 
I don't know that. There are a lot of rumors out there. There 
is a lot of anecdotal information.
    I believe you, as a man of science--we, as Members of 
Congress--must be data driven. And so, No. 1, I want to be sure 
that people can go to wherever they need for healthcare; that, 
No. 2, that whatever your treatment is that you are 
participating in epidemiological work. And it seems, Madam 
Chair, quite troubling that our own Government hasn't set up a 
biosurveillance.
    I don't mean it in a sleuth way. A biosurveillance set of 
protocols so we know the consequence of what is going on out 
there. Because it is not only the heat, but it is oil and it is 
these dispersants. And very little is known about these 
dispersants--the consequence on marine life, the consequence on 
human life, the consequences on our seafood.
    We were shocked at our hearing last week at how little our 
Government knows--and I will put it on our Government--about 
the impact of dispersants on both marine and human life. I am 
looking for care for the people, epidemiological information, 
and more resolve on this.
    So we would like to talk with you more. I would like to 
share with you, my staff, where I got the information that I 
raised these issues. They are not meant to be pugnacious. They 
are meant for getting at what I raised.
    Thank you.
    Mr. Flynn. I will be happy to work with you.
    Senator Murray. Senator Merkley.

                      Statement of Senator Merkley

    Senator Merkley. Thank you very much, Madam Chair.
    Dr. Flynn, quite frankly, I found your introduction to your 
testimony saying, ``Safety is our top priority'' to be 
offensive. You are in charge of safety. You have been for 
several years. You have a long history with the company, and 
yet all of the documentation that we have in front of us is 
about systematic bypassing of an emphasis on safety in favor of 
an emphasis on profit.
    Do you really believe with all your heart you can tell the 
families of the workers who died, not in just this incident, 
but in others, that you have set aside profit to do everything 
for safety as your top priority?
    Mr. Flynn. You heard what I say or said is that safety is 
our No. 1 priority, and profit doesn't come before safety in 
BP.
    Senator Merkley. Well, let us take a look at the material 
then. According to the Center for Public Integrity, in the last 
3 years, BP refineries in Ohio and Texas have accounted for 97 
percent, 97 percent of the egregious, willful violations handed 
out by OSHA. How can one company account for 97 percent of the 
egregious and willful violations handed out by OSHA if safety 
is their top concern?
    Mr. Flynn. The situation with OSHA, where those citations 
have occurred, we were disappointed by those audits. OSHA chose 
to take a different approach in handing down those citations. 
Instead of in the other cases where, for example, a system 
failing would be noted, these were on a per-instance basis.
    What I mean by that is if, for example, you had found an 
electrical fault, that may be one finding in one case. In this 
case, OSHA chose, to give an analogy, to offer a citation for 
every single outlet in the house.
    Now it is a matter for them as to how they do citations, 
but I just want to say that there is a different approach. We 
are not comparing apples with apples, and we don't believe that 
the number of citations reflects the level of risk or the 
progress that we have made.
    So we are working with OSHA. We are working with OSHA to 
resolve our differences, and we are committed to dealing with 
the issues that they have brought up. But I did want to point 
out that difference.
    Senator Merkley. Don't you think it is a little bit strange 
that given that you are blaming it on a process, that same 
process was used throughout the industry? While BP ran up 760 
of the safety violations that were designated egregious and 
willful, Sunoco and ConocoPhillips had 8, Citgo had 2, and 
Exxon had 1. Yet, they were all under the same process. And you 
are blaming it on a process rather than on a culture of 
ignoring safety?
    Mr. Flynn. A different approach was taken. So we are not 
comparing apples with apples there. OSHA chose to issue 
citations in a different way.
    But at the end of the day, we are closing out those, the 
issues that they have identified, and we are working on our 
differences in the way that that was done. At the end of the 
day, we have the same goal as OSHA. We want to create a safe 
workplace.
    Senator Merkley. The former chairman of BP America, Robert 
Malone, did not blame it on the process. He said, ``What I saw 
were breakdowns in a culture of safety.'' Do you disagree with 
BP America Chairman Robert Malone's assessment?
    Mr. Flynn. I think what Bob Malone was talking about was 
what we saw after the incidents of 2005, 2006. As I have said, 
these were terrible incidents. There were breakdowns, and we 
have accepted that, and we have accepted we needed to change.
    But since then, I do believe that we have changed. We have 
invested in our plants. We have invested in our people.
    Senator Merkley. There was a survey of workers on the 
Deepwater Horizon in the weeks before the oil rig exploded, and 
it showed that many of them were concerned about safety 
practices. But they feared reprisals from upper management if 
they reported mistakes or problems.
    Have you taken to heart the feedback from that study, and 
are you concerned about the fact that your own workers are 
afraid to report safety problems for fear of reprisal because 
the company doesn't want to hear any bad news and doesn't want 
it reported?
    Mr. Flynn. The reports that you talk about trouble me 
deeply. Those workers on that Transocean rig were raising 
concerns, and within BP, we expect workers to raise concerns 
and we expect people to respond to them. So what you describe 
does trouble me.
    What we have to do is to look into what was happening 
there. We have to look into the multiple factors of what was 
happening with the Transocean operation to find out what were 
the things that led up to the incident. There are multiple 
investigations going on. Our own investigation, plus the 
Chemical Safety Board, plus various external investigations 
that will look at the multiple factors and the multiple 
different parties that were involved.
    Senator Merkley. Well, my time has expired. But the list 
continues almost without end of shortcuts that were taken to 
increase profits at the expense of safety.
    I must say if you were testifying that we are determined to 
change our culture. We are determined to have a situation where 
we don't encourage workers to not report problems and that they 
won't be afraid of those reports. We are going to make sure 
that we aren't in a rush to produce, and we are going to make 
sure that X, Y, and Z happen that will prevent the blowouts.
    I mean, there is everything from the failing battery on the 
blowout preventer, the problems with the hydraulics, the fact 
that you chose to have a blowout preventer with only one valve, 
the fact it wasn't tested at depth, the fact that you replaced 
mud with light water, even though there had been gas 
irregularities in the pipe. The list goes on and on and on of 
shortcuts.
    And for you to come here today and say we really are at the 
top of the world in terms of safety and it comes before 
everything else, there is nothing in the testimony of any sort 
that backs up that position. And I feel on behalf of those who 
have been injured in your company, it would be a far better 
position to say I am going to change this culture rather than 
to come and tell us all is well.
    Senator Murray. Senator Merkley, thank you.
    Dr. Flynn, on May 5 of this year, a couple of months ago, 
Washington State's Department of Labor and Industries cited the 
BP Cherry Point refinery in my home State for 13 serious safety 
violations during an inspection that started last November. 
Twelve of those violations included failure to routinely 
inspect or maintain safety control devices, such as pressure 
safety values.
    Now I am obviously very concerned about the safety practice 
of refineries in my own State. Can you assure me today that 
fundamental changes are being made at Cherry Point to address 
those violations? These are regulations that are being violated 
that have been there for a long time.
    They are regulations that your employees should be well 
aware of and following. They are too often ignored, clearly. 
And I want to hear from you today what fundamental changes are 
being made as a result of that at Cherry Point today.
    Mr. Flynn. Our requirement is that our operations do comply 
with all aspects of legal requirements, including those process 
safety management rules, the OSHA PSM rules. For each of those 
findings, we will agree abatement with the regulator, and we 
will close them out.
    And we also have put in place our own independent process 
safety management auditing function that we will go around and 
we will check each of those refineries independently so we get 
to it because we don't want to--certainly don't think we 
should--that OSHA should be finding them.
    So we are committed to both having the standards in place 
and to having the auditing in place to check that we are not 
off track.
    Senator Murray. You are vice president of safety. It is one 
of your hats you wear. Have you picked up the phone and 
conveyed that to the management at BP?
    That you want those changes to be made and for those 
fundamental changes to be made at Cherry Point?
    Mr. Flynn. The managers who I work with, the executives in 
the company, we work together on a shared goal of compliance.
    Senator Murray. But you haven't talked with anybody at 
Cherry Point to follow up on this?
    Mr. Flynn. On those particular ones, I haven't talked 
directly to Cherry Point. But I have spoken to the regulatory 
person who covers that at the refining level to ask about those 
particular citations and to get----
    Senator Murray. Because one of the things that we know is 
that if no one is calling up and saying, ``We have a culture of 
safety. You need to follow it. We are very concerned that these 
violations have taken place. Fix it.'' How do you convey that 
you have a culture of safety?
    Mr. Flynn. That is very clear. We actually do measure the 
number of citations that are occurring so that the executives 
can see when things are occurring. And we also set very clear 
expectations, and we audit.
    So Cherry Point will be audited independently by our 
process safety independent auditor team, and we will put in 
place actions to prevent recurrence. Those conversations occur 
with the chief executives of the company, and they are 
transmitted down to that refinery.
    Senator Murray. OK. Well, I am also very concerned about 
the company's ability and willingness to address mechanical 
integrity issues in the future since they seem to be identified 
as a contributor to many of BP's recent failures not only in 
the Gulf, but the Alaska pipeline and U.S. refineries. In fact, 
I heard you state in your opening statement that the first 
layer of protection is plant and equipment.
    Well, I am told by my State's Occupational Safety and 
Health Department that they see disturbing evidence that BP has 
a pattern of delayed maintenance at the Cherry Point refinery. 
In some cases, they see maintenance that should be conducted 
that has been put off for multiple years, and testimony offered 
this week in the investigation of Deepwater Horizon indicates 
that there were over 300 deferred maintenance jobs that would 
have required over 3,500 hours of work to fix.
    So I have to ask you again, how does that represent the 
culture of safety that we keep hearing you talk about?
    Mr. Flynn. Following the incidents that we talked about 
earlier, we put in place standards for mechanical integrity. 
And as part of that, not only are there audits, but if there 
are overdue actions, those get reported up through the line. So 
those are visible, and we have been driving that down so that 
they are not hidden.
    So that is happening inside of BP operations, and 
tremendous progress and changes have been made because there is 
visibility to the executive level.
    On the Deepwater Horizon, there would have been a 
contractual requirement between BP and Transocean that safety 
requirements were met and that that rig was fit for purpose and 
that there weren't maintenance issues. I believe we would have 
expected that it would also be audited, and if those issues 
were found, then the team should have taken it up and sought 
resolution.
    Senator Murray. OK. Well, I guess one of my frustrations is 
there is a disconnect between what the executives are saying is 
being done and what actual practice is. We have management 
saying one thing. We have workers experiencing a different 
reality. And either management isn't being truthful or BP's 
culture of safety is nonexistent. Which one is it?
    Mr. Flynn. I believe our executives' commitment is sincere, 
and also they have put in place processes and systems that will 
make sure that the requirements of the corporation are 
transmitted down to the front line. So, for example, the 
management system that has been put in place puts mandatory 
requirements down into the front line.
    The second thing that happens to make sure that that is 
happening are these independent checks and balances. The fact 
that we have measurement on the delivery of progress on leading 
and lagging indicators, but also independent audit to make sure 
that what the top of the house is saying needs to be done is 
happening down there in the front line.
    Senator Murray. Well, I am concerned. I am seeing a 
disturbingly high number of press reports that suggest that BP 
workers are afraid of speaking out about safety concerns for 
fear of being fired. There was an article in the June 8 edition 
of the Washington Post. A worker raised some safety concerns, 
was criticized by a survivor, and eventually removed.
    I would hope that you would agree that unless workers feel 
100 percent safe in coming forward about their concerns about 
safety, that change can't and won't be fully effective and the 
culture doesn't change. So I would like to ask you today if I 
can get a commitment from you, as vice president of safety, 
that any worker reporting safety concerns at any of BP's 
facilities will be taken seriously and that those workers will 
not be retaliated against.
    Mr. Flynn. That is both my personal commitment, and that is 
company policy.
    Senator Murray. So we have your commitment that that is the 
case?
    Mr. Flynn. Yes. That is both my personal commitment, and 
that is company policy.
    Senator Murray. Thank you, Dr. Flynn.
    Senator Isakson.
    Senator Isakson. Thank you, Madam Chairman. And I 
apologize. I have got to leave in just a minute because I have 
to testify at 11:30, but I did have a parochial question of 
interest.
    I represent the State of Georgia, which does not front on 
the Gulf of Mexico but is 35 miles from the panhandle of the 
Gulf. So we own most of the condominiums in Pensacola and 
Panama City, my constituents do.
    Are you a medical doctor?
    Mr. Flynn. No. I am a Ph.D.
    Senator Isakson. Do you know of any longitudinal studies of 
the effects of oil spills in seawater?
    Mr. Flynn. Excuse me, could you----
    Senator Isakson. Do you know of any longitudinal studies of 
past oil spills and seawater and the effect it might have long-
term on human beings?
    Mr. Flynn. There have been past studies of the fate and 
effects of oil in water. In this particular case, what we are 
doing is we have contributed $500 million to make sure there 
is--going forward, also a long-term study of the fate and 
effects of the Gulf of Mexico oil spill. And that will be done 
independently. There will be a guiding body. BP won't be 
directing that. That will be done through independent channels 
that will look into that.
    Senator Isakson. The old saying is oil and water don't mix, 
and I have personally seen that before. They don't mix. But in 
some of the dispersant that you have been using, does that 
cause oil, some properties of oil to dissolve in the water, or 
does it just break the oil up? Which does it do?
    Mr. Flynn. Dispersants are really no more than detergents. 
I mean, they work in the same way as a washing liquid would to 
clean a greasy plate. In fact, they contain many of the same 
components.
    And so, the Unified Command each day has a difficult 
decision as to is it better to disperse oil or is it better to 
have floating oil? What we know about the long-term fate and 
effects, studies have been done that when you add the 
dispersant, it breaks it up into small droplets, the way it 
would with washing up. And that makes it more biodegradable. 
The microorganisms can biodegrade the components of the oil and 
effectively render them harmless.
    Senator Isakson. OK. The impact of the spill has been 
devastating economically throughout the Southeast where tourism 
is, I know, Florida's No. 1 industry and certainly a 
significant component to Alabama, Mississippi, and Louisiana. 
So the attention of the company to the long-term potential 
effects and to rectifying what those concerns could be is going 
to be tremendously important to people who have invested an 
awful lot of money from my State along the Gulf.
    I hope you will remain committed to that $500 million 
commitment to the study and then to react to the facts that 
come from that study to protect those investments on behalf of 
my constituents and those of many other members of the Senate.
    Thank you very much for your testimony, and I apologize, 
Madam Chair.
    Senator Murray. Senator Franken.
    Senator Franken. Mr. Flynn, how do you feel this is going?
    Mr. Flynn. I am happy to answer your questions.
    Senator Franken. If we had come to you the day before the 
Transocean explosion, would you have said that there are 
processes and systems in place to make sure that it didn't 
happen? I think you suspect that would have been your 
testimony?
    Mr. Flynn. That is our intent, that we operate safely. We 
put in place processes and systems to do that, among other 
things.
    Senator Franken. A number of us have referred to these 
egregious and willful citations, and you said that we are not 
comparing apples with apples. We will have to take your word 
for it, I guess, that OSHA somehow treated your willful and 
egregious violations differently than others.
    Let me read you the definition of an egregious, willful 
citation.
    Willful citations are issued for violations with 
intentional disregard for employee safety and health. Is that a 
culture of safety? Would you say that having intentional 
disregard for employee safety and health is a sign of a culture 
of safety? Or would you say that is maybe the opposite?
    Mr. Flynn. We were really disappointed with the outcome of 
that----
    Senator Franken. Yes. You said a number of times. You said 
that every time. You were very disappointed. Were you alarmed?
    Mr. Flynn. We are working with them to resolve.
    Senator Franken. Were you alarmed?
    Mr. Flynn. As you described and as I described earlier, it 
is a large number, and so, naturally, it attracts attention and 
attracted our attention, which is why we have looked into it to 
understand what is happening and are working constructively 
with OSHA to resolve our differences.
    Senator Franken. So I take it you weren't alarmed? Were you 
embarrassed?
    Mr. Flynn. I mean, we take feedback from the regulator 
very, very seriously. And so, therefore, we have responded. We 
are working with them. We are absolutely committed to resolving 
the issues.
    Senator Franken. I will take that as a no. Serious 
citations, of which you have 30, issued for violations with the 
substantial probability of death or serious injury.
    OK. Again, we had the father of one of the men who was 
killed at the Transocean explosion testify here, and he said 
that no one from BP had come and talked to him. Christopher 
Jones--I am sorry, the brother testified. His brother, Gordon 
Lewis Jones, died on the Deepwater Horizon.
    Would you commit to this committee to reaching out to each 
of the families of the men who died and personally apologizing? 
Because he said no one had ever--from BP--apologized, and he 
felt really awful about that. Would you personally commit to 
the committee that you will do that?
    Mr. Flynn. Let me take that request back because I think BP 
will want to reach out.
    Senator Franken. No, I am asking you a different question. 
I am not asking you to commit to going back to BP and 
discussing it. I am asking you, Dr. Flynn, if you will commit 
to us that you will personally get in touch with each of the 
families of the 11 men who died and reach out personally to 
them?
    Mr. Flynn. If any of those families want to talk to me, 
then I would be happy to do that. It is a devastating tragedy, 
and I could only begin to imagine what those folks are going 
through. And if there is----
    Senator Franken. So they have to reach out to you?
    Mr. Flynn. If there is anything I can do to help, then I 
would be glad to do that.
    Senator Franken. OK. Would you then reach out to these 
families in a way where they have the opportunity to talk to 
you and where you can express your condolences and express your 
sorrow?
    Mr. Flynn. Of course. I mean, I have already expressed my 
condolences and sorrow here.
    Senator Franken. I meant to each of them personally, to the 
families.
    Mr. Flynn. I am happy to do whatever would help. If that 
will help, then I will do it.
    Senator Franken. OK. Thank you.
    Senator Murray. Senator Merkley.
    Senator Merkley. Thank you, Madam Chair.
    The New York Times ran an article on July 12, and it has a 
number of statements in it based on their review of BP's 
record. They start with Thunder Horse. Are you familiar with 
Thunder Horse?
    Mr. Flynn. Yes.
    Senator Merkley. The Thunder Horse is a large billion-
dollar oil platform that tilted badly and nearly sunk because 
of a series of mistakes that were made. ``It could have been 
catastrophic,'' said Gordon Aaker, senior engineering 
consultant on the project. ``You would have lost a lot of oil a 
mile down before you would even know it. It could have been a 
hell of a spill, much like the Deepwater Horizon.''
    If you look at the incidents that occurred before Deepwater 
Horizon and the incidents like this that occurred afterwards, 
do you see a pattern of shortcuts related to safety? Because if 
the engineering shortcuts are taken, the drilling operation is 
imperiled. Do you see a pattern here that is of any concern to 
you?
    Mr. Flynn. Sir, you referred to the Thunder Horse incident. 
That happened around the same time as Texas City, Alaska, and 
so that is why we took a look at all of our operations across 
all of the company. That is why it was a global response to 
what we heard from the Prudhoe Bay investigation, from the 
Baker panel, from our own investigations.
    So there was a global process put in place to look at 
mechanical integrity, to look at safe work controls and to put 
in place management systems and processes and then measurement 
to detect when things were going wrong. So we did respond. We 
have changed things.
    In the case of the Deepwater Horizon, there was a 
particular drilling operation, a particular set of 
circumstances that was going on, and we don't know what 
happened yet. So we will need to look into the causes of the 
accident and put in place actions to prevent recurrence.
    Senator Merkley. If I can ask my question again, it is a 
pretty simple yes or no answer. Did what happened with Thunder 
Horse and other incidents in which a number of people died 
create a pattern that caused concern for you? I don't want a 
long explanation. I just want a, yes, it caused concern, or, 
no, it didn't.
    Mr. Flynn. Of course, we are concerned when there are--
    Senator Merkley. OK. Thank you. Let me go ahead here then.
    I am glad to hear that because it appears from much of the 
review that that concern didn't translate into changes. It 
translated into retaliation against workers who reported safety 
problems, and that is a very different type of way to respond 
to safety than to actually improve safety.
    The authors of this New York Times article say that,

          ``The problems at Thunder Horse were not an anomaly 
        but a warning that BP was taking too many risks and 
        cutting corners in pursuit of growth and profits.''

    Do you disagree with that characterization?
    Mr. Flynn. I disagree with that.
    Senator Merkley. OK. It goes on and says,

          ``Despite a catalogue of crises and near misses in 
        recent years, BP has been chronically unable or 
        unwilling to learn from its mistakes, an examination of 
        its record shows.''

    Do you agree or disagree?
    Mr. Flynn. I think we have learned from our mistakes, and 
we have put in place things that have made real changes on the 
ground and to our processes going forward.
    Senator Merkley. So you disagree?
    Mr. Flynn. I believe we have learned from the accidents 
that have occurred in the past, and we have made real changes 
on the ground.
    Senator Merkley. Do you disagree with that statement then?
    Mr. Flynn. I believe we have learned from those lessons of 
the past.
    Senator Merkley. ``Steve Arendt, a safety specialist who 
assisted a panel appointed by BP to investigate the company's 
refineries after the deadly explosion at Texas City, TX, 
facility, said they were arrogant and proud and in denial. It 
is possible they were fooled by their success.''
    Is that an ongoing challenge for the company?
    Mr. Flynn. We have placed safety as the No. 1 priority in 
BP, and we have put in place actions to learn from the past and 
to manage risks in the future. So we are always going to be 
looking to see if there are issues, to see if there is more to 
be done. So I think we would always be concerned and looking 
for potential improvements. But I think we have learned from 
the lessons of the past.
    Senator Merkley. BP is not the only company that has taken 
on difficult projects with a shaky safety net, but a company's 
attitude toward risk stands in contrast to its competitors, 
most notably ExxonMobil, whose searing experience with the 
Exxon Valdez spill in 1989 spurred a wholesale change in its 
approach to safety.
    So Exxon Valdez, which had far fewer citations, had a 
wholesale change in its approach to safety. Not a change in 
terms of suppressing workers' reports of problems, but in 
actually tackling safety issues. Is it possible that we will 
see from BP a wholesale change in its approach to safety?
    You are in charge. Will you lead that change? Do you intend 
to lead that change? Are we going to see more of the same?
    Mr. Flynn. There has been a significant change that started 
in 2005, and there has been dramatic change over the last 5 
years. And I have been very much part of that as a safety 
professional. That is what I do every day. I have spent the 
last 20 years dedicated to making those improvements.
    So we have made progress, and our commitment is to carry on 
with that. That if things do go wrong, then we will investigate 
them. We will look at the causes, and we will put in place 
actions that prevent recurrence.
    Senator Merkley. Thank you, Madam Chair.
    Senator Murray. Yes, Dr. Flynn, as you are aware, following 
the explosion and fire on the Piper Alpha platform that 
resulted in the deaths of 167 workers, the United Kingdom 
completely revamped its system of offshore safety regulations. 
And as part of that reform, the Health and Safety Executive 
implemented safety case regulations that provide a 
comprehensive core document that can be used to ensure that 
risk control measures and health and safety management systems 
are in place and operate as they should.
    The safety case is required for all installations operating 
in British waters, and it is an offense to operate an 
installation without a current safety case that has been 
accepted by HSE.
    Royal Dutch Shell, which is one of your international 
competitors, has confirmed that it always develops safety cases 
on each of its thousands of wells in the world, whether it is 
required by their laws or not. Can you tell us, does BP submit 
safety cases for all of its offshore installations in British 
waters or in UK-designated areas off the continental shelf?
    Mr. Flynn. It is a legal requirement in the UK. So, 
therefore, we would submit safety cases.
    Senator Murray. OK. Well, as I said, Royal Dutch Shell 
develops safety cases for all of its offshore installations, 
regardless of statutory requirements. Does BP similarly develop 
safety cases for all of its offshore installations worldwide?
    Mr. Flynn. Safety cases are one particular method for 
assessing risks and putting in place management systems and 
arrangements to manage those risks. So we use them in many 
jurisdictions. They are not used extensively. They are not used 
completely around the world for existing--
    Senator Murray. So your answer is, no, you don't use them 
in----
    Mr. Flynn. We would use them for new developments. But in 
existing cases, we have essentially a management system that 
would cover the same ground.
    Senator Murray. But you do not develop these same safety 
cases?
    Mr. Flynn. The safety case is a particular way of putting 
together that information. It is a particular format. But what 
it does is it identifies risks, which is a BP requirement. It 
then puts in places the roles and accountabilities for managing 
those risks and then the processes and measurements by which 
you know that you are on track.
    Senator Murray. OK.
    Mr. Flynn. We require that of every operation.
    Senator Murray. OK. Well, I understand that according to 
the Sunday Telegraph that BP did admit that it did not use a 
safety case on any of its U.S. wells, including the high-
pressure deepwater Macondo well that blew out on April 20?
    Mr. Flynn. So what would have happened is that the right 
safety arrangements would need to be in place to manage the 
risks from the wells, from the activities. So the requirements 
that are in our management system for doing this type of 
activity are essentially the same as would be in the safety 
case. The safety case is a format, a way of doing it.
    Senator Murray. Is there a particular advantage to not 
completing a safety case for each of your worldwide worksites?
    Mr. Flynn. It is up to others, the format that they choose 
to present their management systems. What we have is a 
management system that we believe is adequate for controlling 
risks and putting in place and the requirements for managing 
those risks.
    A safety case is one way of doing it, but there are other 
ways of achieving the same. The most important thing is 
achieving the outcome.
    Senator Murray. OK. Well, let me turn to another question. 
In our previous hearing at this committee, we talked about 
trailers and tents, especially at refineries, but in any 
hazardous location. And I was really shocked to hear at that 
hearing a number of disturbing facts about trailers and tents 
at refineries.
    At the time of the BP Texas City explosion, the American 
Petroleum Institute's Recommended Practice 752 was in use. That 
recommended practice did not specify any minimum safe distance 
from hazardous area for trailers that were used. The 15 
fatalities at BP Texas City all occurred in a trailer that was 
located less than 125 feet from the explosion. And following 
the explosion, the Chemical Safety Board asked the American 
Petroleum Institute to revise or issue a new recommended 
practice.
    API did that. However, API's Recommended Practice 753 
specifically excluded tents and temporary structures, such as 
welding enclosures, from coverage. API's recommended practices 
are just that. They are recommendations and, further, 
recommendations developed by industry members. So no company is 
actually required to follow those.
    So my question to you is, Does BP or the industry really 
think that tents are safer in blast zones than trailers are?
    Mr. Flynn. I think the structures to which you are 
referring, these are shelters from the elements to protect our 
workers from sun or rain. They are not there to provide 
protection from explosions. So they are really just there to 
protect them from the elements.
    And I have actually seen these tents or these structures at 
one of our refineries. I was actually very impressed. I have 
not seen them elsewhere. They are engineered and designed for 
that environment as a shelter for workers.
    Senator Murray. Do you think they are safer than a trailer?
    Mr. Flynn. They are not.
    Senator Murray. I mean the regulation said that trailer 
couldn't--changed it from trailers. So instead of using 
trailers, you are now using tents.
    Mr. Flynn. So let us be very clear that the shelters that 
are used to protect workers from the elements are not used in 
hazardous zones. That is not what they are for.
    Senator Murray. So are tents currently used in any blast 
zones at any BP facility in the United States?
    Mr. Flynn. They are not used in hazardous zones that I am 
aware. They are for protecting workers. If, for example, a unit 
is shut down and maintenance is needed, or if some maintenance 
is being carried out outside of the zone, then they are there 
to protect workers from the elements.
    Senator Murray. OK. Well, I do want to follow up on that 
because it was my understanding that tents are being used in 
blast zones. So I will have more questions on that.
    I have a couple other questions here. Dr. Flynn, as you 
know, under OSHA requirements, companies have to report 
occupational injury and illness numbers. And I have become very 
concerned that these reports, while they are important, are 
inadequate at best and often misleading and at worst allow us 
to divert our attention from more serious indicators of safety 
and protection both for workers and for broader communities and 
environments where the industry operates.
    Do you believe that reports of injuries and illnesses truly 
and fully represent the safety in your facilities?
    Mr. Flynn. This is one of the fundamental learnings from 
Texas City and the Baker panel inquiry was that we needed 
leading and lagging metrics for process safety. So while injury 
statistics are important--we do monitor them, and they are 
important, and they certainly are reported--we use a range of 
leading and lagging indicators inside of the company to give a 
broader picture of process safety.
    Senator Murray. OK. I wanted to ask about your company's 
current state of readiness. How is your planning and 
preparedness for a possible worst-case scenario of a massive 
hydrogen fluoride leak at one of your U.S. refineries similar 
to or different from your planning and preparedness for the 
Deepwater Horizon disaster?
    Mr. Flynn. For any hazard on a plant, then the first step 
is prevention. And so, when something where a material like 
that you describe is used, then there are multiple defenses to 
make sure that that material doesn't get out.
    Senator Murray. Can you assure me that BP is ready to 
respond to an accident of similar proportions at a refinery 
like in Washington State?
    Mr. Flynn. There will be contingency plans for responding 
to an accident--
    Senator Murray. Will be? So there aren't today?
    Mr. Flynn. No, there are. Sorry. There are plans in place 
for responding to an emergency at the refinery.
    Senator Murray. OK. I just have one more question. So, 
Senator Franken, if you have any other additional questions?
    Senator Franken. Do you want to go----
    Senator Murray. No.
    Senator Franken. OK. Dr. Flynn, I really believe that 
worker participation in improving workplace safety is 
essential. Workers are really in the best position to identify 
on the ground safety risks. The original Baker report notes 
that BP had not established a ``positive, trusting, and open 
environment.'' Do you remember that from the report?
    Mr. Flynn. I remember the comments.
    Senator Franken. Yes, I think it was a written report, 
right? An environment in which workers could approach 
management--it said BP had not established a positive, 
trusting, and open environment in which workers could approach 
management about their concerns at all of their facilities.
    So, that was the report about the 2005 explosion there and 
deaths. Yet, as I mentioned in my opening statement, the New 
York Times reported this morning that workers, Transocean, were 
afraid of reporting safety concerns. They were afraid of 
``corporate-level reprisal.'' One of the workers complained of 
``fear tactics.''
    So this is the environment employees were working in 3 
years after the Baker report recommended implementing a 
positive, trusting, and open environment. When can we expect 
such an environment to become a reality for people who work for 
BP?
    Mr. Flynn. Inside of BP, I would have to agree that a 
cooperative relationship with the workforce so they can bring 
forward concerns is really important. The Baker panel pointed 
it out. We are very, very committed. So we have put in place 
actions to promote that. So we are already in action about it.
    When I hear those reports for what happened onboard the 
Transocean enterprise rig, then that gives me cause for 
concern. We wouldn't expect that sort of thing to be happening, 
and so, therefore, it is something that would need to be looked 
into.
    Senator Franken. OK. You took this job, when, in 2007, 
right?
    Mr. Flynn. Yes, 2007.
    Senator Franken. And when we went over these statistics on 
egregious, willful citations and willful citations and serious 
citations, these are from 2007 through 2010, from June 2007 to 
February 2010.
    I have to agree with the chair that there seems to be a 
disconnect between your testimony and what appears to be the 
reality here. Now you are the vice president of Health, Safety, 
Security, and Environment. Is that correct?
    Mr. Flynn. Yes.
    Senator Franken. You are in charge of all this, right? You 
are responsible?
    Mr. Flynn. My role is to set standards, to advise executive 
management and those that are implementing those standards, and 
then to monitor trends and give advice to the executives if 
intervention is needed. But in BP, we are clear that the 
business line is accountable for delivering safety along with 
business, and safety is the first priority.
    Senator Franken. OK. I am not sure what that answer meant. 
Do you feel responsible? Do you feel that you have a 
responsibility for the safety of people working for BP?
    Mr. Flynn. I have a part to play, and my role is to 
establish standards that extend company-wide and programs. I am 
also responsible for advising executive managers and those that 
implement those standards and for monitoring progress through 
things like audit. That is what I am responsible for.
    Senator Franken. I think part of the disconnect isn't just 
between your testimony and reality, it is sort of between the 
human catastrophe and tragedy that we saw and the affect that 
we get from you. And I think that is disturbing to other 
members of the committee. That is what I felt.
    And I just think that it was very disturbing to me that no 
one from BP had made any attempt to get in touch with the 
families. Maybe you are right. Maybe they don't want to hear 
from you at this point. Maybe it has just been too long.
    But just speaking to you man to man, I just don't get it. I 
don't get BP. I don't get its lack of remorse or the way it 
expresses it.
    Thank you, Madam Chair.
    Senator Murray. Dr. Flynn, thank you for coming today.
    I was not happy when previously BP refused to participate 
in the committee hearing. So I know that the last 2 hours have 
not been a fun experience for you.
    I did want to ask you, you have heard from our committee 
members. People are very concerned about what happened and the 
reaction and want to know that the company truly understands 
the deep impacts of this. And I just have to ask you, when you 
go back to your corporate headquarters and into the offices, 
are you going to say, ``Whew, I made it through the hearing,'' 
or are you going to go back and tell them that there are 
serious concerns that this company needs to address in the 
future?
    Mr. Flynn. We have heard those very serious concerns. We 
have heard those concerns coming from those affected, those in 
the Gulf Coast. We are very committed to investigating the 
incident, putting right whatever we discover, and to continue 
to improve safety in BP.
    Senator Murray. Well, would you give me your commitment 
today to work with me and Senator Isakson, this committee, and 
this Administration in leading fundamental and really lasting 
change in BP's own and in the oil and gas industry's general 
approach to safety and protection standards and regulations in 
this country?
    Mr. Flynn. We would be happy to work with you.
    Senator Murray. OK. I appreciate that. Thank you very much. 
And thank you for coming and being a witness today.
    And I want all of our members to know that they can submit 
additional questions to you, and they may do that. We would ask 
for your response.
    And for members who do want to submit a statement for the 
record, this hearing record will remain open for 7 days.
    And with that, this hearing is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                  Prepared Statement of Senator Brown

    Chairman Murray and Ranking Member Enzi, thank you for 
holding today's hearing.
    We are here to determine the extent to which the Deepwater 
Horizon explosion, sinking, and subsequent oil spill were 
preventable. Specifically, we are here to establish the extent 
to which BP's workplace safety initiatives failed workers and 
the families of the 11 men who died on the evening of April 20, 
2010, and determine the true extent to which worker safety 
guided operational decisions at BP.
    Assistant Secretary of Labor for Occupational Safety and 
Health, David Michaels, recently questioned BP's ability and 
willingness to protect its workers, noting that BP has failed 
to ensure the safety and health of those responding to the oil 
spill.
    Does this indicate a systemic problem at BP? A culture that 
disregards the importance of worker safety? That's one of the 
key questions driving today's hearing.
    Congress must determine what--if any--systemic problems 
contributed to the most devastating oil spill ever recorded.
    The public must understand why BP's Group Operations Risk 
Committee initiatives, established by BP 3\1/2\ years ago as 
their primary means of ensuring consistent, safe, and reliable 
operations at all personnel levels, failed to halt any one of 
the series in events that led to the explosion on board 
Deepwater Horizon on April 20, 2010.
    With managers at all levels completing extensive 
specialized process safety and management training and with 
safety being the company's proclaimed top priority, how could 
this disaster have occurred?
    We must also determine what factors really drove the 
decisionmaking process on board Deepwater Horizon. It has been 
reported that, as of April 20, 2010, the Deepwater Horizon well 
operation was running 5 weeks late. The drilling vessel had 
experienced several power blackouts, had 390 maintenance jobs 
uncompleted, computer glitches, and an unreliable propulsion 
system.
    Did the 5-week production lag contribute to the decision to 
replace the heavy drilling mud in the pipes with lighter 
seawater? This process removed the substance holding down the 
gas pressure of the leaking well, dangerously increasing the 
speed of a $750,000/day process. This decision was made despite 
the fact that the emergency disconnect system, which would halt 
flowing oil from the wellhead, wasn't operational.
    Why did BP personnel override the protests of Deepwater 
Horizon's chief driller and continue to delay over 300 
maintenance projects?
    The answers to these and other questions may lead to 
understanding the causes of this disaster and prevent future 
tragedies such as Deepwater Horizon. I look forward to the 
testimony of the witness and thank Chairman Murray again for 
holding today's hearing.

    Thank you. Thank you very much.
    [Whereupon, at 11:55 a.m., the hearing was adjourned.]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
